<html>
<title> - U.S. POLICY IN EUROPE</title>
<body><pre>[Senate Hearing 115-796]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-796
 
                       U.S. POLICY IN EUROPE

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON EUROPE AND
                     REGIONAL SECURITY COOPERATION

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE


                     ONE HUNDRED FIFTEENTH CONGRESS


                             SECOND SESSION

                               __________

                             JUNE 26, 2018

                               __________



       Printed for the use of the Committee on Foreign Relations
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       


                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                         
                         
                         
             U.S. GOVERNMENT PUBLISHING OFFICE 
 40-371              WASHINGTON : 2020               
 


                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                ROBERT MENENDEZ, New Jersey
MARCO RUBIO, Florida                 BENJAMIN L. CARDIN, Maryland
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        




                   SUBCOMMITTEE ON EUROPE AND        
                 REGIONAL SECURITY COOPERATION        

                RON JOHNSON, Wisconsin, Chairman        
JAMES E. RISCH, Idaho                CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    BENJAMIN L. CARDIN, Maryland
RAND PAUL, Kentucky                  JEANNE SHAHEEN, New Hampshire

                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Johnson, Hon. Ron, U.S. Senator From Wisconsin...................     1
    Prepared statement...........................................     1
Murphy, Hon. Christopher, U.S. Senator From Connecticut..........     3
Mitchell, A. Wess, Assistant Secretary, Bureau of European and 
  Eurasian Affairs, U.S. Department of State, Washington, DC.....     4
    Prepared Statement...........................................     7

              Additional Material Submitted for the Record

The Committee Received No Response From Assistant Secretary A. 
  Wess Mitchell for the Following Questions Submitted by Senator 
  Bob Menendez...................................................    27
Responses of Assistant Secretary A. Wess Mitchell to Questions 
  Submitted by Senator Benjamin L. Cardin........................    30
Open Letter to Presidents of Parliaments of European States......    36


                             (iii)        


                         U.S. POLICY IN EUROPE

                              ----------                              


                         TUESDAY, JUNE 26, 2018

                               U.S. Senate,
                        Subcommittee on Europe and 
                     Regional Security Cooperation,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:49 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Ron Johnson, 
chairman of the subcommittee, presiding.
    Present: Senators Johnson [presiding], Portman, Murphy, and 
Shaheen.

            OPENING STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Good morning. This hearing of the Senate 
Foreign Relations Subcommittee on Europe and Regional Security 
Cooperation is called to order.
    I am happy to welcome Assistant Secretary Wess Mitchell to 
discuss U.S. foreign policy in Europe.
    Mr. Secretary, I really appreciate you coming, and looking 
forward to our back-and-forth.
    I would ask consent that my opening--my written opening 
remarks be just entered into the record. I just want to make a 
couple of quick points.
    [The prepared statement of Senator Johnson follows:]

         Prepared Statement of Senator Ron Johnson of Wisconsin

    Good morning and welcome. The Senate Foreign Relations Subcommittee 
on Europe and Regional Security Cooperation is meeting to examine U.S. 
policy in Europe. We are joined today by Assistant Secretary for Europe 
and Eurasia, Wess Mitchell, who will provide a window into the 
Administration's thinking on this important subject.
    In February 2007, Vladimir Putin gave a speech at the Munich 
security conference in which he formally announced Russia's return as 
America's foil on the international stage. Putin's speech was an 
astonishingly frank attack on America's role in the world. 
Significantly, Putin did not confine his litany of complaints to 
specific American policies; he targeted the very nature of the U.S.-led 
rules-based international system. According to Putin, this system and 
its institutions were nothing more than instruments for furthering 
American hegemony. The U.S. and Europe reacted with irritation and 
surprise but took little concrete action. Didn't Putin know that 
history was over?
    In the decade since, Putin has done much to demonstrate his 
sincerity. Russia has invaded Georgia and Ukraine, violated arms-
control agreements, modernized its nuclear arsenal, propped up the 
Assad regime in Syria, used energy exports for geopolitical coercion, 
conducted continuous cyberattacks and disinformation campaigns against 
the West, and interfered in numerous democratic elections, including 
our own. Finally, we have begun to wake up. The Trump administration's 
National Security Strategy is a clear-eyed recognition that great power 
competition is once again the prime mover in international politics. 
There is broad consensus in the West that Russian aggression in Eastern 
Europe and the Balkans is a serious threat that must be checked. 
Indeed, we will spend much of our time today discussing how that is to 
be accomplished.
    However, Russia is not the only irritant in U.S.-Europe relations. 
Disputes over trade, defense spending, and Germany's decision to push 
forward with Nord Stream 2 have cracked transatlantic solidarity. While 
these are difficult issues, we must remember they are not without 
precedent. Like any close relationship, we have experienced significant 
disagreements before--Suez, Pershing missiles, and Iraq come to mind. 
But the historic, cultural, and political bonds that unite us have 
always proven stronger than the transitory disputes that threaten to 
divide us. I have no doubt they will prevail again over our current 
quarrels.

    Senator Johnson. I am an accountant. I like data. There are 
two relatively big issues that have been brought to the fore in 
the last 18 months. One relates to NATO's--our NATO partners 
meeting their 2 percent commitment. The question I always had, 
okay, 2 percent--have the limited number of them actually 
meeting that--What does that mean, dollar-wise? And we did ask 
the State Department. And, in 2016, that shortfall was about 
$122 billion worth of defense spending. Now, in 2017, according 
to testimony, they have increased spending, about 14.4 billion. 
It is slated to go up another 10 billion in 2018. So, now the 
shortfall is about 98 billion. We are told that, over the 
period from 2019 to 2024, another 35-and-a-half-billion-dollar 
shortfall will be filled, leaving a 62-billion-dollar shortfall 
8 years after 2016. So, it just kind of puts that into 
perspective, in terms of what that actually is.
    And, as I have discussed this with our European allies and 
friends and partners, I always try and make the point that this 
is not just President Trump making this point. He is really 
speaking for the American public. If Europe expects America to 
be steadfast in our relationship, the least Europe can do is 
spend that 2 percent and, you know, contribute their fair 
share.
    The other point I want to make is--and the other, you know, 
bone of contention, obviously--is trade. We hear, you know, the 
massive trade deficits. The fact of the matter is, we export--
in 2017, we exported--America--about $528 billion into the EU. 
We imported $629 billion from the EU, leaving a goods-and-
services trade deficit of about 101 billion. That is about 19 
percent of what we export.
    Now, I understand that the President is trying to reset our 
trading relationships, shock our European partners into really 
reducing tariffs. I think the best term that the President has 
introduced into this debate is reciprocal treatment. It would 
be great if we could have total reciprocity in our trading 
relationship, with no trade barriers, whether tariff or non-
tariff barriers. That is a worthy goal. Hopefully, we can 
achieve that goal as quickly as possible.
    Dr. Mitchell, I also did read your speech to the Heritage 
Foundation. And just kind of--I do not want to steal your 
thunder, but I thought it was pretty salient, because I do not 
think it is included in your testimony, that you said in that 
speech, ``Coming into 2017, the administration inherited a 
failed Russian reset, a conflict in Ukraine that had already 
cost 10,000 lives, a failed red line with Syria, the largest 
migration wave in recent European history, an EU that was 
navigating the first formal exit of a member state in its 
history, and an insolvent Iran agreement that had helped enable 
a scale of Iranian expansion from the Persian Gulf to the 
borders of Israel not seen since antiquity.''
    These are some enormous challenges. We still face them. New 
challenges are growing every day. This is--you know, I am 63 
years old. I really cannot remember a world that seems to be so 
destabilized, so many threats coming from so many different 
directions. So, I think this will be a pretty interesting 
conversation today.
    And again, I appreciate your willingness to testify.
    With that, I will turn it over to Ranking Member Murphy.

             STATEMENT OF HON. CHRISTOPHER MURPHY, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you, Ambassador Mitchell, for being with us here 
today. As I hope you know, I tell visitors into my office from 
Europe regularly how lucky we are that you have chosen to take 
up this very difficult assignment. I want to congratulate you 
on some recent good news with respect to an agreement between 
Greece and Macedonia, which hopefully paves the way for 
Macedonia to join some of the most important European and 
transatlantic institutions. And, once again, I thank you for 
your service and your willingness to serve.
    That being said, we had a nominee to be the Ambassador to 
the EU before this committee last week, and it is fairly 
ridiculous that it took a year and a half to get an Ambassador 
to Brussels. But, he characterized the moment that we are in 
today with respect to the U.S.-Europe relationship as just part 
of the normal ups-and-downs in the transatlantic relationship. 
This simply is not true. The relationship between the United 
States and Europe is in crisis. It has never been this bad in 
the postwar era. It is getting worse by the month. And if it 
collapses, as I would argue it is on pace to do, then the 
entire world order, based upon a joint U.S.-European drive to 
spread open economies and participatory democracies to the 
world, collapses, as well.
    I know this sounds hyperbolic, but I really do think the 
stakes are this high. I think the state of the relationship, if 
it is even a relationship these days, is in that bad a state. 
And I do not even have time to run through the gauntlet of 
abuses that this President, in a short year and a half, has 
heaped on Europe. But, here are just a few:
    He has unilaterally backed out of the two most important 
diplomatic achievements between our two continents in the last 
decade, the Paris Accord and the Iran nuclear agreement. He 
started a trade war, that the Chairman referenced, with Europe, 
perceiving our European allies to be global economic 
adversaries rather than partners. He regularly personally 
attacks European leaders on Twitter, reserving the most vicious 
treatment for Germany, the undisputed leader of the EU. He 
cheered, as a candidate, and still cheers, the breakup of the 
European Union, parading Nigel Farage around D.C. like some 
sort of revolutionary hero. He traffics European white 
nationalist propaganda through his social media feed, trying to 
open, rather than heal, racial and ethnic divides in Europe. 
And he recently announced that Russia should rejoin the G7 
without even a single consult with our European partners about 
what message that would send, given the fact that Russians' 
behavior in the region has gotten worse, not better, since 
Trump's election.
    This has all led one of the greatest friends of the U.S.-
Europe relationship, Foreign--Swedish Foreign Minister Carl 
Bildt, to say, ``Is Putin interfering and trying to destabilize 
the policies of the EU? Yes. But, Trump, at the moment, is far 
worse. The President's hostility towards the EU is making the 
challenges that we face jointly all the more difficult, from 
Brexit to the rise of populism, tensions in the Balkans, 
finding a solution to immigrant flows, countering Russia's 
energy dominance and interference politically in the region, 
fighting terrorism. The United States should be standing side 
by side with our allies in Europe, not trying to break apart 
this relationship.''
    I hope that you will continue to serve as a bulwark against 
the worst of these attacks from this President. But, you and 
the other supporters of the U.S.-EU alliance are losing this 
argument with the--within the administration, badly, so far. We 
are very lucky to have you and many others trying to win that 
argument, but, unfortunately, you have come out on the wrong 
side. And I look forward to exploring some of these topics over 
the course of this hearing.
    Senator Johnson. Thank you, Senator Murphy.
    Dr. Wess Mitchell is the Assistant Secretary of State for 
European and Eurasian Affairs. Prior to his appointment, Dr. 
Mitchell cofounded and spent 12 years building the Center for 
European Policy Analysis. He is the author of numerous 
articles, reports, and books on transatlantic relations and 
geopolitics. Dr. Mitchell received his Ph.D. in political 
science from Freie University, in Berlin, Germany.
    So, Secretary Mitchell, do not be constrained by the 5 
minutes. I mean, give us your full opening statement, then we 
will start with questions.

STATEMENT OF HON. A. WESS MITCHELL, ASSISTANT SECRETARY, BUREAU 
  OF EUROPEAN AND EURASIAN AFFAIRS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Dr. Mitchell. Thank you, Senator Johnson and Senator 
Murphy, members of the committee. I appreciate you calling 
today's hearing. I am very happy to have this opportunity to 
talk about the strategy that is guiding the administration's 
approach to Europe and Eurasia.
    Next year will mark three decades since the fall of the 
Berlin Wall. We--as we celebrate the triumph of Western 
democracy over communism, we must remind ourselves that this 
outcome was not inevitable. It was a product of active, 
intense, and prolonged effort by the United States and our 
European allies.
    I think it is now very clear, in retrospect, that history 
did not end in 1989. Today, as both of these Senators have 
mentioned, Europe is once again a theater of serious strategic 
competition. Europe today faces pressures on multiple fronts: 
strategic campaigns from Russia and China, record waves of 
migration, Iranian ambitions in the Mediterranean and the 
Levant, and a crisis of confidence in European institutions. 
Our Europe strategy begins by acknowledging that America and 
Europe must take the reality of strategic competition 
seriously. Our goal is--was outlined by President Trump in 
Warsaw, and that is to preserve the West. We cannot succeed in 
that task without Europe, which, together with the United 
States, is the West and the heart of the free world.
    Preserving the West begins with strengthening our physical 
defenses. The United States has demonstrated our resolve by 
reaffirming our commitment to NATO Article 5 and putting real 
resources into the defense of Europe. We are providing military 
assistance to Ukraine, Georgia, Moldova, the Baltics, and other 
European countries. For fiscal years 2018 and 2019, the 
administration has requested more than $11 billion in new funds 
to expand the European Deterrence Initiative.
    Our allies are stepping up. At U.S. urging since January 
2017, every NATO member but one has increased defense spending. 
The number of allies that will spend 2 percent on defense by 
2024 has tripled, and the number allocating 20 percent to major 
equipment has nearly doubled. In that time, the alliance, as a 
whole, has raised defense spending by 5.1 percent, or $14.4 
billion, and we project a further $10 billion increase this 
year, the largest such increase in a generation.
    But, material strength is only part of the equation. Taking 
strategic competition seriously requires that the United States 
and Europe replenish our shared commitment to the cause of 
freedom that, since antiquity, has been the West's foremost 
gift to the world. Russia and China both represent a coherent 
model, stability founded on authoritarianism and brute force 
harnessed to certain aspects of market competition and 
commingled with state-run politicization of the economy.
    Both Russia and China want to break the West. Russia wants 
to splinter it, and China wants to supplant it. One place where 
they are especially aggressive is in Central and Eastern 
Europe. Our first priority here is to check Russian aggression. 
In recent years, a revanchist Kremlin has attempted to 
forcefully redraw borders, intimidated and attacked neighbors, 
launched disinformation and cyber campaigns against the West, 
and engaged in military buildups on its western frontiers.
    We seek a better relationship with Russia, but that can 
only happen when Russia stops its aggressive behavior. We will 
not compromise our principles or our allies. As Secretary 
Pompeo has said, the years of soft policy that enabled Russian 
aggression are over. We will continue to raise the cost of 
Russian aggression until President Putin chooses a different 
path.
    Since January 2017, we have brought sanctions against 213 
Russian individuals and entities. In response to the Skripal 
attack in the United Kingdom, we helped to organize the largest 
expulsion of Russian spies in recent history, and sent more 
than 150 intelligence officers back home to Russia. In 
partnership with EUCOM, the State Department is leading the 
U.S. Government's effort to counter Russian disinformation. We 
continue to demand that the Russian government uphold its 
international commitments and allow its citizens to exercise 
their fundamental freedoms without fear of retribution.
    In parallel, we are building up the means of self-defense 
for the frontier states most directly threatened by Russian 
militarily, Ukraine and Georgia. We lifted the previous 
administration's restriction on enhanced defensive assistance 
and helped both states improve their defensive capabilities. 
Simultaneously, we are striving to keep Ukraine on the path of 
reform, most recently by urging its leaders to adopt an 
anticorruption court that meets IMF standards and to set gas 
tariffs to market prices. And we are working to strengthen U.S. 
political, military, and economic engagement with Georgia.
    Across the eastern frontier, from the Baltic to the Black 
Sea and into the heart of the Danubian Basin, we are working to 
build stronger long-term bulwarks against the Chinese and 
Russian inroads that weaken our allies' security and undermine 
their ties to the democratic West. We are working with allies 
to strengthen the resilience of their political systems and to 
combat corruption, improve their military readiness, diversify 
energy supplies through projects like the Southern Gas 
Corridor, Krk Island, and BRUA Pipeline, and increase regional 
coordination through projects like the Three Seas Initiative, 
Visegrad, and Bucharest 9.
    Throughout this region, we are animated by the urgent need 
outlined in the National Security Strategy to compete for 
positive influence. Nations here have greater strategic options 
than in the past. The memory of 1989 is fading. We must be 
diligent to defend Western principles, but we must also be 
willing to engage diplomatically much more robustly than we did 
in the recent past. Criticism bereft of engagement is a recipe 
for estrangement. We must provide a viable alternative to 
allies and reach out to them constructively or expect to lose 
them to rival spheres of influence.
    Europe's southern frontier, the Mediterranean Basin and its 
littorals, is another point of strategic focus. Rallying our 
allies to take Europe's southern frontier more seriously will 
be a major focus of the upcoming NATO Summit. We are working 
with allies to increase and coordinate contributions to 
operations in the Middle East, secure Europe's borders, get 
NATO more deeply engaged in the counterterrorism business, and 
project stability in North Africa and the Middle East.
    The Eastern Mediterranean poses particular challenges. 
Russia has increased its naval presence there and is seeking to 
solidify a sphere of influence. Turkey faces profound external 
and internal challenges. It is a steadfast partner in defeat-
ISIS efforts and migration, and an indispensable component in 
counterbalancing Iran. We look forward to working with the 
newly reelected President Erdogan on these challenges while 
also making clear that issues in our bilateral relationship 
need to be resolved.
    Our immediate concerns are to secure the release of Pastor 
Andrew Brunson and other unjustly detained U.S. citizens and 
local Embassy staff, to prevent Turkey's purchase of the 
Russian S-400 system, and to develop a modus vivendi for our 
respective forces and local partners in stabilizing Northern 
Syria and preventing ISIS's return. We encourage President 
Erdogan to immediately implement his pledge to lift Turkey's 
ongoing state of emergency, and to take additional measures to 
represent the views of all of Turkey's citizens and strengthen 
Turkey's democracy.
    In parallel, we are constructing a long-term strategy to 
bolster the U.S. presence in the Eastern Mediterranean. We are 
cultivating Greece as an anchor of stability in the 
Mediterranean and Western Balkans, and working to 
systematically strengthen security and energy cooperation with 
Cyprus.
    We are also increasing U.S. engagement in the Western 
Balkans. Through active U.S. diplomacy and close coordination 
with the EU, we supported Prime Minister Tsipras and Prime 
Minister Zaev in achieving a potentially historic breakthrough 
in the Greece-Macedonia name dispute. We opened up 
communication channels with both Serbia and Kosovo, and are 
promoting reforms in Bosnia-Herzegovina.
    In all of these areas--anchoring the Western alliance, 
securing Central and Eastern Europe, and stabilizing the 
South--we are committed to finding a common way forward. In the 
past 9 months, I have made 29 visits to European countries and 
given more than 22 speeches. Through this outreach, I have seen 
that what unites the West is far greater than what divides us. 
While strong U.S. positions on Iran, trade, burden-sharing, and 
Nord Stream 2 may not lead to immediate agreement with allies, 
the long-term cost of neglecting these things far outweigh 
whatever short-term benefits we get from the appearance of 
political unity today.
    On all of these fronts, our message is the same. We must 
act. We can debate, strategize, and coordinate, but we must 
act. We cannot continue to defer action on things that make the 
West collectively weaker against serious rivals. Our task is 
one of strategic renovation, doing the hard work of shoring up 
and strengthening the West now so that we do not have to later, 
on terms that are much less favorable. As Metternich said, ``To 
preserve is to act.'' I am committed to doing exactly that, and 
I am convinced that we will succeed, with Europe, together.
    Thank you.
    [The prepared statement of Dr. Mitchell follows:]

              Prepared Statement of Hon. A. Wess Mitchell

    Thank you Chairman Johnson, Ranking Member Murphy, and members of 
the Committee for calling today's hearing. I am happy to have the 
opportunity to talk about the strategy that is guiding the 
Administration's approach to Europe and Eurasia.
    Next year will mark three decades since the fall of the Berlin 
Wall. As we celebrate the triumph of Western democracy over communism, 
we must remind ourselves that this outcome was not inevitable. It was 
the product of active, intense, and prolonged effort by the United 
States and our European allies.
    History did not end in 1989. Today Europe is once again a theater 
of serious strategic competition. It faces pressures on multiple 
fronts: strategic campaigns from Russia and China, record waves of 
migration, Iranian ambitions in the Mediterranean and Levant, and a 
crisis of confidence in European institutions.
    Our Europe strategy begins by acknowledging that America and Europe 
must take the reality of geopolitical competition seriously. Our goal, 
as outlined by President Trump in Warsaw, is to preserve the West. We 
cannot do so without Europe, which together with the United States is 
the West and the heart of the free world.
    Preserving the West begins with strengthening our physical 
defenses. The United States has demonstrated its resolve by reaffirming 
our commitment to NATO Article 5 and putting real resources into the 
defense of Europe. We are providing military assistance to Ukraine, 
Georgia, Moldova, the Baltics and other European and Eurasian 
countries. For fiscal years 2018 and 2019, the Administration has 
requested more than $11 billion in new funds to expand the European 
Deterrence
                               initiative
    Our allies are stepping up. At U.S. urging, since January 2017, 
every NATO member but one has increased defense spending. The number of 
allies that will spend 2 percent on defense by 2024 has tripled. And 
the number allocating 20 percent to major equipment has nearly doubled. 
In that time, the Alliance as a whole has raised defense spending by 
5.1 percent or $14.4 billion, and we project a further $10 billion this 
year--the largest such increase in a generation.
    But material strength is only part of the equation. Taking 
competition seriously requires that the United States and Europe 
replenish their shared commitment to the cause of freedom that since 
antiquity has been the West's foremost gift to the world. Russia and 
China both represent a coherent model--stability founded on 
authoritarianism and brute force, harnessed to certain aspects of 
market competition and commingled with state-run politicization of the 
economy.
    Both Russia and China want to break the West: Russia wants to 
splinter it and China wants to supplant it. One place where they are 
especially aggressive is in Central and Eastern Europe. Our first 
priority here is to check Russian aggression. In recent years, a 
revanchist Kremlin has attempted to forcefully redraw borders, 
intimidated and attacked neighbors, launched disinformation and cyber 
campaigns against the West, and engaged in military buildups on its 
western frontiers.
    We seek a better relationship with Russia. But that can only happen 
when Russia stops its aggressive behavior. We will not compromise our 
principles or our allies. As Secretary Pompeo has said, the years of 
soft policy that enabled Russian aggression are over; we will continue 
to raise the costs of Russian aggression until President Putin chooses 
a different path.
    Since January 2017, we have brought sanctions against 213 Russian 
individuals and entities. In response to the Skripal attack in the UK, 
we helped to organize the largest expulsion of Russian spies in recent 
history and sent more than 150 intelligence officers home to Russia. In 
partnership with EUCOM, the State Department is leading U.S. government 
efforts to counter Russian disinformation. We continue to demand that 
the Russian government uphold its international commitments and allow 
its citizens to exercise their fundamental freedoms without fear of 
retribution.
    In parallel, we are building up the means of self-defense for 
frontier states most directly threatened by Russia militarily: Ukraine 
and Georgia. We lifted the previous administration's restrictions on 
enhanced defensive assistance and helped both states improve their 
defensive capabilities. Simultaneously, we are striving to keep Ukraine 
on the path of reform, most recently by urging its leaders to adopt an 
anti-corruption court that meets IMF standards and set gas tariffs to 
market prices. And we are working to strengthen U.S. political, 
military, and economic engagement with Georgia.
    Across the eastern frontier, from the Baltic to the Black Sea and 
into the heart of the Danubian Basin, we are working to build better 
long-term bulwarks against the Chinese and Russian inroads that weaken 
our allies' security and undermine their ties to the democratic West. 
We are working with allies to strengthen the resilience of their 
political systems and combat corruption, improve their military 
readiness, diversify energy supplies through projects like the Southern 
Gas Corridor, Krk Island and Bulgaria-Romania-Hungary-Austria (BRUA) 
pipeline, and increase regional coordination through projects like the 
Three Seas Initiative, Visegrad 4 and Bucharest 9.
    Throughout this region, we are animated by the urgent need, 
outlined in the National Security Strategy, to compete for positive 
influence. Nations here have greater strategic options than in the 
past. The memory of 1989 is fading. We must be diligent to defend 
Western principles. But we must also be willing to engage 
diplomatically much more robustly than we did in the recent past. 
Criticism bereft of engagement is a recipe for estrangement. We must 
provide viable alternatives to allies and reach out to them 
constructively. Or expect to lose them.
    Europe's southern frontier--the Mediterranean Basin and its 
littorals--is another point of strategic focus. Rallying our allies to 
take Europe's southern frontier more seriously will be a major focus of 
the upcoming NATO Summit. We are working with allies to increase and 
coordinate contributions to operations in the Middle East, secure 
Europe's borders, get NATO more deeply engaged in the counterterrorism 
business, and project stability in North Africa and the Middle East.
    The Eastern Mediterranean poses particular challenges. Russia has 
increased its naval presence there and is seeking to solidify a sphere 
of influence. Turkey faces profound external and internal challenges. 
It is a steadfast partner in Defeat-ISIS efforts and migration, and an 
indispensable component in counterbalancing Iran. We look forward to 
working with newly re-elected President Erdogan on these challenges, 
while also making clear that issues in our bilateral relationship need 
to be resolved. Our immediate concerns are to secure the release of 
Pastor Andrew Brunson and other unjustly detained U.S. citizens and 
local embassy staff; to prevent Turkey's purchase of the Russian S-400 
system; and to develop a modus vivendi for our respective forces and 
local partners in stabilizing Northern Syria and preventing ISIS' 
return. We also encourage President Erdogan to implement immediately 
his recent pledge to lift Turkey's ongoing state of emergency, and to 
take additional measures to represent the diverse views of all of 
Turkey's citizens and strengthen Turkey's democracy.
    In parallel, we are constructing a long-term strategy to bolster 
the U.S. presence in the Eastern Mediterranean. We are cultivating 
Greece as an anchor of stability in the Mediterranean and Western 
Balkans and working to systematically strengthen security and energy 
cooperation with Cyprus.
    We are also increasing U.S. engagement in the Western Balkans. 
Through active U.S. diplomacy and close coordination with the EU, we 
supported the visionary leaders Prime Minister Tsipras and Prime 
Minister Zaev in achieving a potentially historic breakthrough in the 
Greece-Macedonia name dispute. We have stepped up communication with 
both Serbia and Kosovo. And we are promoting reforms in Bosnia and 
Herzegovina.
    In all of these areas--anchoring the Western Alliance, securing 
Central and Eastern Europe, stabilizing the South--we are committed to 
finding a common way forward. In the past nine months, I have made 29 
visits to European countries and given more than 22 speeches. Through 
this outreach I have seen that what unites the West is far greater than 
what divides us.
    While strong U.S. positions on Iran, trade, burden-sharing, and 
Nord Stream 2 may not lead to immediate agreement with allies, the 
long-term costs of neglecting these things far outweigh whatever short-
term benefits we get from the appearance of political unity today. On 
all of these fronts, our message is the same: we must act. We can 
debate, strategize and coordinate. But we must act. We cannot continue 
to defer action on things that make the West collectively weaker 
against serious rivals. Our task is one of strategic preservation 
through renovation: Doing the hard work of shoring up and strengthening 
the West now so that we don't have to do so later on terms that are 
less favorable. As Metternich said, ``to preserve is to act.''
    I am committed to doing exactly that. And I am convinced that we 
will succeed, together. Thank you.

    Senator Johnson. Thank you, Dr. Mitchell.
    I am just going to ask one question, and then I will turn 
it over to Ranking Member Murphy.
    We had an interesting conversation in my office before the 
hearing, here, and I had asked you previously, you know, To 
what extent do we know the dollar investment that China is 
making into, you know, all of Europe, and particularly Central 
Europe? And you actually did give me a figure on that. Now, in 
your testimony, you mentioned, a couple of times, the pressure 
of the influence that both Russia and China are trying to yield 
within Europe. But, we also talked a little bit about Hungary. 
Can you, first of all, tell us how much China is investing, how 
strategic their investment is, and just give us your thoughts, 
in terms of what is happening in Hungary?
    Dr. Mitchell. Thank you for that question, Senator.
    The Chinese investment in Central and Eastern Europe is 
serious, it is strategic, and it is growing. The exact dollar 
amounts are hard to pin down, but a good estimate is, between 
the--2005 and 2017, People's Republic of China invested more 
than $24.19 billion in the 16+1 countries that form Central and 
Eastern Europe. To give you a sense of perspective on this, 
China is the primary financer of a high-speed railway link 
between Budapest and Belgrade that is valued at approximately 
$3.8 billion alone.
    As a frame of reference, the United States, and OPIC in 
general, oversees--is somewhere between 40 and 60 billion, 
worldwide. For Europe and Eurasia, if you are looking at the 
amount of aid and assistance that we put out, it is something 
like 1.13 billion, total, including supplemental funding, 
excluding Central Asia.
    So, I think the scale of what the Chinese are putting into 
this region is considerable, in monetary terms. They are also 
very strategic with these investments. They use what you could 
call ``debt-book diplomacy,'' where they invest in strategic 
properties and infrastructure on pretty easy terms, and then 
they wait until countries cannot service the debt, and they 
claim the infrastructure. They are sharpening their outreach in 
soft power and the creation of Confucius Centers. So, they are 
competing for influence. And I think, from a U.S. and a Western 
perspective, we have to acknowledge that we have lost a lot of 
ground in Central and Eastern Europe. '89 is an increasingly 
distant memory for a lot of people.
    And one of the most serious objectives that I think we have 
to have, that my team and I are working on, this year and into 
next year, is the 30th anniversary of 1989. It is a magnificent 
opportunity for the U.S., through our outreach and public 
diplomacy and aid, to reengage hearts and minds in that region. 
And that is a--an endeavor that will take a lot of focus and 
effort, but I look forward to working with this committee to 
increase the Western and U.S. presence in Central and Eastern 
Europe.
    Senator Johnson. But, again, you have encouraged me, and I 
have made a couple of trips now to Serbia and Kosovo, paying 
attention to them. You know, whether we can actually get the EU 
to integrate them anytime soon is another question, but paying 
attention and trying to engage. But, we also talked a little 
bit about Hungary and Poland. I mean, the--both leaders have 
come under criticism, here, but you have a--you know, from my 
standpoint, a policy of positive engagement, if that is a--can 
you just kind of speak to that?
    Dr. Mitchell. Well, I think we have to engage, Senator. I 
think we have lost ground, in part because our rivals are 
showing alacrity and creativity to the Russians, as well, but 
in part because of unforced error on our part. And I think, you 
know, a number--I would just start from zero and say, we--to 
your point, we did de-prioritize Central and Eastern Europe as 
a strategic theater. I think we did that, starting after 2011, 
for some very good reasons at the time. From 2009 onward, we 
had a reset and a pivot to Asia. So, we were de-emphasizing 
Central and Eastern Europe both militarily and diplomatically. 
The Russians and Chinese were not. And, in many countries in 
this region, I think you see that the Russians and Chinese have 
gained considerable political and economic yardage. I think, in 
the recent past, when the United States has often been harder 
on our allies, like Hungary or Poland, than we are on Russia, 
through periods like the reset, I think that that has been a 
mistake. I think it created vacuums that others have filled.
    So, in our approach, going forward, what we try to do is 
strike a balance. We have to be clear about our principles and 
what we stand for. That is who we are. And we will never stop 
being clear about our principles, both publicly and privately. 
But, I think we have to balance that with increased diplomatic 
engagement. The Chinese and Russians are in these countries on 
a regular basis at senior levels of government, spending lots 
of money on infrastructure. If we just show up occasionally and 
we do nothing but criticize, we can expect to lose ground.
    So, I think we have to strike that balance very carefully. 
And, first and foremost, we have to get back in the game and 
compete for hearts and minds.
    Senator Johnson. Thank you.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Listen, it is no secret, I think that our strategy with 
respect to Europe is a, just, total debacle. And it is not your 
fault. I understand you do not share the views of this 
President with respect to the attacks that he has launched on 
Europe or some of the policies he may be implementing towards 
Russia. But, you are the only one that we can ask, so let me 
try to get some clarification on what our policy is.
    Let us start with Russia. The President recently announced 
a new U.S. policy to bring Russia back into the G7, reversing 
the previous policy of requiring Russia to implement the Minsk 
agreement before being invited back in to join the G7. Why did 
our policy change?
    Dr. Mitchell. Thank you for that question, Senator. And let 
me answer both the first and second part of it.
    The first part of it, I would say, on our approach to 
Europe, I think it is well articulated in the President's 
Warsaw speech. And I think his starting point, and the starting 
point of this administration, is to say we are not going to 
strengthen the West by continuing the polite fiction of some 
areas of U.S. and European policy that are weakening us, 
collectively, and probably preventing the United States from 
wanting to stay engaged in Europe, long term. So, burden-
sharing, Iran, imbalances in trade, Nord Stream 2, all of these 
have been positions that we have staked out very forcefully 
because we believe, if you do not address those things in the 
years ahead, the West, collectively, will be worse off.
    On the issue of Russia, the administration has been clear 
that the door to dialogue with Russia is open. We have stated 
that repeatedly at various levels. We have opened avenues of 
communication on Ukraine, on Syria, on cyber. An improvement in 
the bilateral relationship, however, can only happen when 
Russia stops its aggressive behavior. So far, we have been 
disappointed in the Russian government's unwillingness to 
accept responsibility for its actions. With regard to upcoming 
developments, vis-a-vis Russia on the G7, the Department does 
not--has--we have nothing to announce at this time. I think 
what we have been clear on, and what I will continue to fight 
for, is an approach to Russia that is open to dialogue but does 
not sacrifice our principles or our friends.
    Senator Murphy. But, just to be clear, the President 
expressed his desire for the G7 to bring Russia back in, with 
no preconditions. Regardless of what the State Department has 
to announce, you are not in charge of U.S. foreign policy. The 
President is. And he announced that his desire is to bring 
Russia back in, without preconditions. I mean, we all watched 
him say it on TV. Is that not the President's position?
    Dr. Mitchell. Well, I think that is extrapolating somewhat 
from the comments that he made. As I understand the President's 
view of Russia, this is a--this is the--one of the world's 
largest nuclear powers. We have to be open to dialogue. We have 
to reach out and keep the channels open. But, I think this 
administration, in the last year and a half, has done more to 
take tough stance on Russia than the previous administration 
did in its first 6 years in office in a reset that helped pave 
the way for the Ukraine war. So, I think our record on Russia--
if you judge this administration by our actions, the stance we 
have taken on sanctions, 213 individuals and entities in the 
last year and a half, what we are doing on Nord Stream 2, what 
we are doing to buck up our allies, I think we have a good 
record.
    Senator Murphy. Let me--listen, the administration got 
dragged, kicking and screaming, to implement those sanctions, 
by people on this panel. So, to suggest that the administration 
is leading on a set of sanctions that you were forced to put 
into place by legislation passed by this Congress, I just--I 
think it is--I have great respect for you, Ambassador. I think 
that is stretching the bounds of how this played out.
    The President recently tweeted, ``The people of Germany are 
turning against their leadership as migration is rocking the 
already tenuous Berlin coalition. Crime in Germany is way up. 
Crime in Germany is up 10 percent since migrants were accepted. 
Other countries are even worse. Be smart, America.'' This is 
pretty exceptional, that the President is openly campaigning 
against the leader of the most important country inside Europe, 
tweeting that Germany is turning against their leadership. We 
know that the statistics he references are not true. In fact, 
crime is down 10 percent, not up 10 percent. But, why is the 
President openly trying to undermine Chancellor Merkel's 
political support in Germany? How does that support U.S. 
objectives?
    Dr. Mitchell. I think the situation with migration in 
Europe is one that we have to take very seriously. And in the 
last few months, in Italy, Austria, Germany, France, I think 
publics in these countries have been very clear that they want 
stronger borders, they want to protect the nation-state, and--
--
    Senator Murphy. I guess, that is not my question. My 
question is--this is a very personal attack on Chancellor 
Merkel. He is saying that the people of Germany are ``turning 
against Chancellor Merkel,'' and using his social media, using 
his voice to criticize her and to cheer those that are 
politically opposing her, side by side with an Ambassador to 
Germany who has openly stated he is going to use his position 
to help conservatives across the continent, politically. My 
question is not about our position on migration. My question 
is, Why is the President weighing in on the political 
circumstances of the Chancellor? Why is he using his voice to 
try to politically undermine the Chancellor? You could disagree 
with me that you do not think that tweet is doing that, but it 
certainly sounds, when you say that Germany is turning against 
Angela Merkel, that you are trying to undermine the Chancellor.
    Dr. Mitchell. Well, I interpreted the President's tweet to 
be an expression of concern about the state of migration in the 
Western world, generally. And I think we have been slow to wake 
up to this challenge. It is a divisive issue in a lot of our 
societies. I think, as I understand the President's statements 
on this, we have to take migration seriously. The--it--
migration--irregular migration in Europe is challenging 
societies at all levels--economically, socially--and it cannot 
be addressed by simply saying that the door is wide open, 
without a discussion about--a serious public policy discussion 
about how we regulate and moderate the flow of irregular 
migrants.
    On Ambassador Grenell, I think his comments were taken out 
of context. He has made clear that he is not endorsing any 
particular candidate or political party. We have a very robust 
dialogue with the German government on a lot of areas of the 
relationship, and expect that dialogue to continue. Ambassador 
Grenell has since clarified his comments and noted that it is 
not U.S. policy to endorse candidates or parties, and he was 
making general observations in the interview.
    My focus overall in the relationship with Germany is to 
increase engagement in all areas possible. We have a very 
strong bilateral relationship with Germany, a lot of areas of 
cooperation in security, counterterrorism, trade. I take the 
long view. I think the transatlantic relationship and the U.S.-
German relationship have been through a lot of storms in our 
history. That should not lull us into complacency. I think we 
have to be very proactive in building up as much cooperation as 
possible. But, I think the relationship is a lot more healthy 
than is often made out in the media.
    Senator Murphy. Okay, thank you.
    Senator Johnson. Senator Portman.
    Senator Portman. Thank you, Mr. Chairman. I appreciate your 
holding the hearing.
    And, Ambassador Mitchell, good to see you. Three quick 
questions.
    First has to do with something that might be viewed as more 
of a U.S. priority than a European priority. But, I think it is 
both. And that is how to screen investments. I understand you 
talked earlier about the fact that China has invested about $24 
billion in Europe since 2001. As you know, we have a CFIUS 
process, here in this country, which, while imperfect, allows 
us to screen investments. The same is not true in Europe. I was 
recently in Europe, in Eastern Europe, talking about a number 
of issues, including Senator Murphy's and my legislation on 
disinformation and how we are coordinating with them to push 
back against Russian disinformation, primarily. And this issue 
came up. And there was actually an interest, on behalf of some 
of the countries, in working with us to help understand how we 
could come up with a way to view investments, from a national 
security perspective.
    So, my first question to you is whether you have worked on 
that. How do you feel about it? And has the State Department 
done anything to share best practices and exchange information 
and coordinate efforts with our allies to prevent adversaries 
from using commercial tools to undermine our national security?
    Dr. Mitchell. Thank you for the question, Senator.
    It is a very timely question. When I was in the Czech 
Republic last week, we held the--a meeting of the U.S.-Czech 
Strategic Dialogue. And this was one of the items of 
discussion. We are working closely, through our embassies, with 
Central and Eastern European countries. There are different 
ways to go about creating a national security filter. There is 
different models that can be used. The point of emphasis in all 
of them is to find a mechanism by which allied government can 
draw a differentiation between investments that are purely 
commercial and market-oriented and those that are animated by 
or create--could create a pathway to abuse of national security 
concerns. So, we are in active, ongoing dialogue with our 
allies on that. In Central Europe proper, it is a particularly 
important subject, and it is something I have been closely 
engaged on.
    Senator Portman. Well, good. Well, I would encourage you to 
continue to do that. And, for those who are listening who are 
wondering why this is a big deal for the United States, it is a 
backdoor to the United States. In other words, if European 
firms become owned, let us say, by a Chinese company that might 
have a national security interest, and particularly in 
obtaining technology in the United States, we then contract 
with that company in Europe that has now not gone through the 
CFIUS-type process with regard to Chinese investment. We could 
circumvent our process here. So, I think it is really important 
for us, as well as for our allies in Europe. And I hope you 
will continue to work with them on that. I think it is in our 
interest that they do have a screen.
    With regard to U.S.-Russian relations, you made an 
interesting point earlier, which is that you can look at the 
rhetoric or you can look at the results. And it is pretty 
impressive, in terms of what this administration has been able 
to do, in terms of pushing back in some very specific areas. 
The sanctions were talked about. Understandably, Congress is a 
little more forward-leaning on some of those sanctions. But, 
the administration did sign the legislation and has implemented 
those sanctions. And the sanctions are appropriate as to, not 
just Crimea and the illegal annexation, but also other issues. 
And I think that is appropriate, to keep these sanctions in 
place.
    With regard to providing lethal weapons, defensive weapons, 
to the Ukrainians to be able to defend themselves, we worked 
with the Obama administration for years on that issue. No--it 
was unsuccessful. And initially in the Trump administration, 
there was some concern. But, at my recent trip to the Ukraine, 
I was able to see the results, which is that now the Trump 
administration is providing the Ukrainians the means to defend 
themselves. And the Javelin missiles being, of course, the most 
striking example of that, but other equipment, as well, 
including anti-sniper packages to be able to push back against 
what is happening on the line of contact, where I was able to 
go, over the Easter period.
    So, my question to you is, If there is a Russian Summit, 
which it looks like there will be, here, coming up, do you 
expect that these sanctions are going to become part of the 
conversation? I expect they will. And what is your view on 
that? There has been some criticisms of the way some of these 
sanctions have been implemented, from people who would like to 
be tougher on Russia. I know Russia will push back the other 
way. What do you expect will happen at that Summit? And what 
will your be--your advice be?
    Dr. Mitchell. Thanks for the question.
    I know there has been a lot of speculation about this, and 
I would just say that we are going into all aspects of our 
engagement with the Russian Federation with eyes wide open. We 
remember the example of reset. I think we have had two 
consecutive administrations--it is not even a partisan issue--
prior to this administration that started their term with a 
positive opening to the Russians, and that was abused, and then 
ended their term with a regional war. That is not something 
that we are going to replicate.
    On the issues of--issue of sanctions, specifically, I have 
read the legislation very carefully, and CAATSA, in particular, 
spells out what would be needed in the way of changed Russian 
behavior in order to see a lifting of sanctions or a softening 
of sanctions. That is law. It is stipulated very specifically. 
We will abide by the law as it has been formulated. I think we 
have to be able to say, in our conversations with the Russians, 
what specific actions would be needed to address our concerns, 
whether it is lifting sanctions or changing the overall 
temperature in the relationship. And in all of these areas, in 
the case of CAATSA, it is defined very specifically. On 
Ukraine, leaving Eastern Ukraine, the matter of Crimea, cyber, 
what is happening in Syria, I think that is very clearly 
spelled out. And we will continue to abide by the letter and 
spirit of the law.
    The broader point that you make on Russia, I think, is an 
important one that transcends multiple administrations. And it 
is this increasing pattern of a Russia that abuses openings 
early in an administration's term. And we have seen that often 
enough that I think the U.S., collectively--I think both 
parties, and certainly this administration, is alive to the 
tendency of Vladimir Putin to abuse one-sided openings. I think 
that the reset was illustrative in this regard. I remember the 
open letter that several Central and Eastern European friends 
of America wrote in the early days of the reset, and warned us 
that if we open this door to one-sided engagement, not only 
would Putin abuse it, but we would likely have a war on our 
hands. And that proved, sadly, prophetic. We stepped back on 
missile defenses for Poland and Czech Republic, we stepped back 
on promoting democracy in the post-Soviet space, and we see the 
consequences of that. So, you had the pivot, you had the reset, 
we withdrew our--the last U.S. tanks from Europe.
    And I think that is important to keep in mind, simply 
because we had a solid, secure period in the previous 
administration that I would characterize as the perception of 
engagement, but the reality of disengagement. And, I think, in 
this administration, in our first year and a half, we have a 
very strong track record. And I think we have exactly the 
opposite. While it is often described as disengagement, I think 
we are very engaged in Europe right now. Look at what we are 
doing on EDI, look at our stance on Nord Stream 2, look at what 
we are doing on Iran. So, I think we may not agree with our 
allies on the tactics on every one of these things, but we are 
in close dialogue, we are committed to finding a joint way 
forward, and I think we will.
    Senator Portman. With regard to Ukraine, just for a 
second--my time is expired--I suspect one of the issues to be 
raised at the Summit is President Putin asking to make 
decisions about Ukraine without Ukraine at the table. That 
certainly has been the approach they have taken in the past. 
Again, in your role, I expect you to have strong views on this. 
How would you advise the President on this issue of Ukraine? 
And specifically, the sanctions and what is going on in the 
contact line on the eastern border of Ukraine.
    Dr. Mitchell. Well, I am not going to engage in too many 
hypotheticals. I will say that, on Ukraine, we have been very 
clear in our public messaging, and I think the legislation is 
clear, what specific actions would be needed on the part of the 
Russians in order for us to lift sanctions. And I think we have 
shown our resolve in this matter, not least by providing 
defensive aid to the Ukrainians and to the Georgians.
    I think, you know, beyond that, our overall mindset has to 
be that we keep the door open to constructive dialogue where 
there are shared areas of interest. It is increasingly hard to 
see where there are shared area of--areas of interest to the 
Russians. But, I think we owe it to the American people and to 
international stability to keep open to the idea that we can 
find those areas, particularly in counterterrorism. But, again, 
I will not engage in hypotheticals. I--we will see where the 
process leads. But, I think we have been very clear about where 
the boundaries are.
    Senator Portman. Thank you, Mr. Chairman.
    I appreciate the comments.
    Senator Johnson. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you, Secretary Mitchell, for being here today and for 
all of the good work that you are promoting in Europe.
    In your statement, you say very clearly that we seek a 
better relationship with Russia, but it can only happen when 
Russia stops its aggressive behavior. Do you think Russia has 
stopped its aggressive behavior?
    Dr. Mitchell. No, ma'am.
    Senator Shaheen. So, this week, National Security Advisor 
John Bolton is heading to Moscow to plan a summit with Vladimir 
Putin here in the United States, where President Trump is 
talking about having what appears to be a very positive meeting 
with Vladimir Putin. What kind of message does that send to our 
European allies about our willingness to be tough with Vladimir 
Putin?
    Dr. Mitchell. Thanks for the question, ma'am.
    You know, our European allies consistently say to us that 
they want the United States to have a less adversarial 
relationship with Russia. I think they see that--they see the 
need to strike the same balance that we see and the previous 
administration saw, a need to strike a balance between 
engagement where there are shared interests--I am a skeptic 
that there are many areas, but we have to be open go that--and 
balancing that for a strong messaging on interests and values.
    In terms of the National Security Advisor's outreach, I 
call that diplomacy. And what I would say is that, whether that 
leads to a better relationship, or even a meeting, is up to the 
Russians. I think we have been publicly clear what the standard 
is for seeing a change in the relationship with Russia, on 
Syria or on Ukraine. We have been crystal clear in our 
messaging on the need for the Russians to stop meddling in our 
own internal affairs. But, whether that----
    Senator Shaheen. But, let me----
    Dr. Mitchell.--leads to----
    Senator Shaheen.--let me just interrupt you there, because 
I would agree that--I mean, we may disagree about the motives, 
but I agree that the actions over the last year and a half have 
been tough on Russia, because of the sanctions that were passed 
overwhelmingly by a bipartisan Congress, and that that has been 
very important. But, we have not--there is a difference between 
what we are doing and what we are hearing out of this White 
House based on Russia. And the concern that I have got is--you 
are talking about, ``Russia needs to stop meddling in our 
internal politics and our internal economy,'' and yet we have 
not heard this President even acknowledge that Russia is 
meddling in, and is continuing to meddle in, American 
elections. And there are concerns about what that will mean for 
the upcoming midterms. So, despite the fact that the 
intelligence community has said that, and I think a number of 
people within the State Department have acknowledged that, the 
President has not acknowledged that. And that is the disconnect 
that I am concerned about and about what this kind of a 
summit--what kind of a message that sends to Russia, and 
whether they will misinterpret what the intent of the United 
States is.
    Dr. Mitchell. I understand your question. And I would say, 
judge us by our actions. We--our goal, at this point, is to 
ensure that any dialogue we do have with the Russians--and it 
is not yet clear whether there will be one--but, to ensure 
that, in any interactions that we have the Russians, we are 
doing so from a position of U.S. strength. And I think we have 
accumulated that position of strength and leverage in the past 
year and a half very well.
    Senator Shaheen. As you point out, the proof is in the 
pudding. And so far, we have not seen any actions really taken 
to address Russia's meddling in the United States, other--by 
the President. So, I look forward to seeing what might come out 
of that kind of a summit.
    But, I want to switch to NATO, because, as Senator Murphy 
pointed out and you acknowledged, we have made--we have seen 
progress between Greece and Macedonia on the naming issue. And 
what do you think that means for the potential for Macedonia to 
join NATO? And are you concerned about the--what we are 
seeing--the demonstrations that we are seeing in both Greece 
and Macedonia, and whether that will deter the governments of 
both of those countries in their resolve on this issue?
    Dr. Mitchell. Well, thank you for that question.
    It is a critical issue, and I will just say it is--making 
progress on the name dispute has been a major point of focus 
for our team. To answer your question directly, I would say, 
yes, I am concerned. I am specifically concerned about the 
potential for Russian meddling. We saw this with Montenegro. 
Russian representatives have been making very threatening 
statements. And I think there is a high potential, particularly 
on the Macedonia side, for the Russians to try to interfere 
with this. We have made clear to the Russians we are watching 
it closely, and it is not in Moscow's ambit to decide 
Macedonia's future. We are working together with--to strengthen 
Macedonian institutions. We have excellent security cooperation 
with the Macedonians. And I am in frequent contact with senior 
leaders there. Also, we know Russian methods.
    More broadly on your question, the next steps on this are 
that the Macedonian parliament has--the Macedonian parliament 
has ratified the deal, but it has to be confirmed by a public 
referendum. And then the parliament has to adopt the necessary 
amendments by a two-thirds majority. We would then expect to 
see Greece ratify the agreement only after Macedonia has made 
the constitutional changes. And then we expect to see NATO 
extend an invitation to what would be North Macedonia at the 
summit in July. We are hopeful that the EU will decide to open 
accession negotiations. That is much less certain right now 
than the NATO path. We----
    Senator Shaheen. Have you had a chance to talk to the EU 
about that?
    Dr. Mitchell. Yes, we have.
    Senator Shaheen. Have they----
    Dr. Mitchell. We are in----
    Senator Shaheen. Have they given you any indication of what 
they might do?
    Dr. Mitchell. We are in frequent dialogue, daily dialogue, 
with--particularly with the French, on this matter. The French 
have some concerns that--we are working with them to help 
understand their concerns and chart a way forward. I am 
optimistic that we will see that. As you know, we are coming up 
on a council meeting. But, I think everyone recognizes that 
what the Greek and Macedonian leaders have done is truly 
historic and, if it is successful, has the potential to be 
something on the scale of Dayton for its implications for the 
Balkan Peninsula. And, really, I would expect to see a tailwind 
from that in how we approach Serbia-Kosovo, how we approach 
Bosnia-Herzegovina. And I--and we are committed to using that 
opening, not just on the name issue itself, but to get a ripple 
effect in other parts of the region.
    Senator Shaheen. So, if there is a summit between Vladimir 
Putin and President Trump, will you and Secretary Pompeo be 
advising the President that he should raise the issues of 
Russian meddling in Greece and Macedonia, and in the Balkan 
region in general, as one of the issues for their discussions?
    Dr. Mitchell. The issue of Russian meddling is at the 
forefront of all interagency discussions about Russia. It is a 
central reality that we are very focused on. So, my short 
answer to your question would be yes.
    Senator Shaheen. And are you aware that the President has, 
in any of his conversations with Vladimir Putin, raised those 
concerns?
    Dr. Mitchell. I am not aware of the--and we often do not 
reveal the content of all private diplomatic conversations, but 
I know the administration has frequently and publicly raised 
the concern.
    Senator Shaheen. The President has frequently and publicly 
raised the concern?
    Dr. Mitchell. The administration.
    Senator Shaheen. But, not the President.
    Dr. Mitchell. I would have to review the record, ma'am.
    Senator Shaheen. I would love to have you review the record 
and share with this committee any occasions in which the 
President has raised those concerns publicly.
    Dr. Mitchell. Happy to do so.

    [The information referred to was not available at time of 
print]

    Senator Shaheen. Thank you.
    Senator Johnson. Thank you, Senator Shaheen.
    As long as we are talking about dialogue, I think it is 
important, and I think we need to do it from a position of 
strength and resolve. There is no doubt about it. And, Dr. 
Mitchell, I think you are aware, Ambassador Huntsman encouraged 
me to lead a delegation, which Senator Shaheen was going to 
join, as well. I think it was going to be in January 2017. And 
then, unfortunately, Senator Shaheen was denied entry. So, we 
called it off. We were not going to let the Russians play the 
game. Now, Senator Shelby is going to be leading a delegation 
next week, and I signed on to that. I am not sure whether they 
are going to let me in. My plans are still up in the air. I 
want to go. So, I guess I would just encourage you to use 
whatever contacts.
    The dialogue is good. I think it should be a goal to 
improve relations with, you know, a power that has 7,000 
nuclear weapons, that is putting pressure on Eastern Europe and 
the Baltic states, and trying to gain greater influence. 
Dialogue is good, but, from a position of strength. So, again, 
I will just encourage you to--I want to go, and I want to try 
and improve those relations, but, from a standpoint of strength 
and resolve.
    We meet, I think all of us meet, frequently with our 
European partners. I have made more trips to Europe than I 
probably intended to in 2017. One of the reasons is, I want to 
reaffirm, certainly Congress's--you know, our branch of 
government's--our strong, unanimous commitment to those strong 
strategic alliances with both NATO and the EU. I am hopeful, in 
those discussions, that people realize that, long term, those 
are strong relationships. Do you get the same sense? I mean, 
you know, obviously--and again, I am--I kind of appreciate your 
testimony here. By ignoring problems--I am not one to ignore 
problems. I want to get right in. If there is conflict 
involved, fine, but get the problem resolved and move forward, 
in terms of long-term, strong relationship. Do you get the 
sense that that is the attitude as you are dealing with our 
European partners, that they can separate the short-term 
troubles versus what the long-term outlook is?
    Dr. Mitchell. I do. I get the impression, in our 
conversations with members of NATO and the EU, there is a 
growing realization that history did not take the course that 
people expected it to take, from the vantage point of 1989, 
that the world is becoming more competitive geopolitically, 
that the West faces very serious challenges from China and 
Russia and Iran. And I think the political willingness to 
engage those challenges has increased.
    You know, this is not the first administration to raise the 
matter of burden-sharing or Nord Stream 2. I think what is 
changing is both the urgency, which is what the United States 
is raising it, but also there is--it is--I think it has been a 
wake-up call for Europeans to see things like the Ukraine war 
on their own doorstep, 10,000 casualties so far, the irregular 
migration flows as a result of the conflict in Syria. So, 
geopolitics is back.
    And, on a long-term basis, if we take it a--if we take a 
long view and we say--in a few years' time, we look back and we 
are able to say that we increased burden-sharing, and Germany, 
in particular, met its 2 percent commitment, that we killed 
Nord Stream 2, that we got a fairer and more reciprocal playing 
field in international trade and transatlantic trade, and that 
we got a framework in place for dealing with Iran, I think that 
would be a pretty good run. I think we can look back and say, 
on that basis, the West, as a whole, is collectively better off 
for the strategic competition.
    None of these things that we are working on in our 
diplomacy are things that we are approaching from a narrow U.S. 
self-interest. They are in the American interest. But, in most 
cases, they are things that we have raised repeatedly with 
European allies in the past, and that we want to make headway 
on.
    Senator Johnson. And we are making headway, particularly on 
the burden-sharing. It was interesting, when I first joined 
this committee, I believe Senator Murphy was Chairman of the 
subcommittee at that point in time, and we met repeatedly with 
European partners. And, back then, if you remember, the 
discussion was all about Edward Snowden, Angela Merkel's 
cellphone, that type of thing. And then Charlie Hebdo happened. 
And I have not heard that since. And it really is the serious 
nature of--the threat of terrorists pose to all of our 
societies, and the need for us to maintain strong partnerships, 
and particularly share the intelligence, which is the first 
line of defense against that. Do you believe that our 
intelligence-gathering and--sharing and cooperation--is that as 
strong today, or stronger, than it certainly was before Charlie 
Hebdo?
    Dr. Mitchell. Our intelligence and law enforcement 
cooperation with European countries in a NATO framework, EU 
framework, and on bilateral bases, is exceptionally strong.
    Senator Johnson. So, again, that is a good positive outlook 
in terms of what a relationship is.
    Just talk a little bit about--again, this kind of goes back 
to a conversation we had in our office--the different approach 
that both Russia and China use, versus the U.S., when it comes 
to investing in foreign countries.
    Dr. Mitchell. Well, I think the Russians and Chinese have 
done a better job than the West, collectively, in the last few 
years, integrating matters of commerce and investment into a 
geopolitical or a strategic vision. They--the Chinese, in 
particular, tend to view commercial investments abroad as a 
matter of state. And my perception is that they--the Chinese 
have tended to approach these questions with a much more long-
term filter or framework in mind. And I think, in the countries 
of Central and Eastern Europe, you see the results of that, a 
quiet, skillful building up of influence, relationships, and 
investment over the last several years, that the Chinese have 
undertaken through the 16+1 and the One Belt, One Road. I think 
we have to acknowledge that these are serious, well-thought-
out, well-resourced, long-term efforts. And we have to be 
candid about the goal. And the goal is very much to undermine 
the Western order, both politically and economically.
    The West, by comparison, I think, has tended to segment 
strategic issues and trade. I think we have also tended to 
see--or tended to imagine that the institutional enlargements 
of the immediate post-Cold-War period were a straight-line 
trajectory that was sort of an arc of history or an end of 
history that implied a certain amount of lassitude on our part. 
And I think the events of the last several years have been a 
real wake-up call that Europe is not a post-geopolitical 
environment.
    I think we have--I think we are catching up quickly in 
understanding the need to compete in that environment, but the 
message of the National Security Strategy, first and foremost, 
is that that is a serious and prolonged strategic competition 
with big-power rivals, that counterterrorism will always be 
important and a priority, but it will not retain the salience 
in U.S. foreign policy that it did from the--from 9/11 until a 
couple of years ago, that we have to shift into a different 
mindset for the West, in general. And that requires some tough 
choices for our societies.
    Senator Johnson. So, real quick, you know, America, we 
spend about 1 percent of our Federal budget on foreign aid; in 
the past, oftentimes, with very little--very few strings 
attached, you know, really just showing the compassion of the 
American public. China does it--goes about it a little 
differently, do they not? I have certainly heard anecdotal 
evidence, where they will build, let us say, a port, but then 
make a loan, which the country obviously cannot pay off, 
default the loan, all of a sudden they own the port. Is that 
kind of a standing operating--standard operating procedure 
with----
    Dr. Mitchell. That is a----
    Senator Johnson.--the way China goes about----
    Dr. Mitchell.--that is a good generalization. I think that 
is an accurate characterization. I would just add that the 
Chinese tend to apply less in the way of obvious near-term 
strings. There are strings attached. Countries find, down the 
road, when they can no longer service the debt, that they--
chunks of their infrastructure are claimed. So, there are 
strings attached. They are less immediate. And I think the 
Chinese have also tended to have more of a relationship-based 
approach to national elites, who, in many of these countries, 
are corruptible, and corruption remains--I would argue, 
corruption is the single-biggest problem, even among some of 
our allied states in Central Europe. And the Chinese are very 
brazen in using those pathways of corruption.
    Senator Johnson. Where we cannot do that. You know, so--
yeah, so that is a big difference. It is--I hate to say this--a 
huge advantage they have, in terms of making those types of 
strategic investments with the delete.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Just two quick comments on the conversation we are having 
about Russia, and then I want to change the topic to try to get 
another set of questions in before the time is over.
    Listen, I--you and I have a different analysis of what 
happened in 2013 in Ukraine. I do not want to litigate it here, 
but I do think it is a convenient conceit to suggest that the 
Russian invasion of Ukraine was a consequence of a set of 
American policies from 2008 to 2013. I can, frankly, make a 
very different argument to you, that it was, in fact, the 
success of the transatlantic relationship that had brought 
Ukraine to the point at which they were considering joining the 
European Union that panicked Russia into a mistake that they 
will pay for, for a very long time, unless Trump gets his wish 
and they are brought back into institutions like the G7.
    And I also do not think that there is a lot of evidence 
that Russia's bad behavior is getting better. In fact, I would 
argue that it is getting worse. You have seen significant 
democratic backsliding in Poland, Hungary, Turkey, that has 
been cheerled by the Russians. You have seen the United States 
effectively outsource diplomacy in Syria to the Russians and to 
the Turks. Big, major, new Russian investments in places like 
the Balkans at levels we did not see during the Obama 
administration. And the continued partnership between the 
Russian government and the Trump administration with respect to 
pushing Trump's agenda. Schumer's shutdown was trending on 
Twitter because of Russian government propagandists who were 
pushing that storyline in the U.S. media. They have not given 
up on their attempts to try to influence the American political 
dialogue. So, I do not think that there is evidence that their 
bad behavior is getting--is lessening. I think, frankly, it is 
getting worse and worse.
    Let me turn to the Iran nuclear agreement, because I would 
love to have you talk to us for a few minutes about what our 
strategy is. The announcement that we were going to pull out of 
the agreement was not unexpected. The message has been sent, 
from what I understand, that we are going to reimpose U.S. 
sanctions, but also secondary sanctions. As you know, 
Chancellor Merkel and others in the European Union are 
attempting to try to keep the Iranians to their end of the 
agreement, which, in their minds, involves, for instance, 
keeping Iran's access to banking systems, such as the SWIFT 
system.
    So, I guess my question is a bigger one, but it has two 
parts. What are our plans to continue to roll out previous 
sanctions, such as secondary sanctions, on European companies 
that are doing business with the Iranians? And how on earth 
do--does the administration plan to do what they said they were 
going to do, which is put together a series of sanctions that 
are tougher than the previous set of sanctions? Because, right 
now, we seem to be in a world in which the Europeans want no 
part of that, they want to continue this relationship with Iran 
to try to get Iran to refrain from restarting their nuclear 
program. We seem to be a little unclear as to exactly what the 
pace of the reimposition of the sanctions are. And, to most 
folks, there seems, today, as if there is absolutely no hope of 
ever being able to put back together a set of sanctions than 
were stronger than the ones that we had back in place. Flesh 
this out a little bit for us.
    Dr. Mitchell. Sure. Thank you for those questions.
    On the first point, I would--I completely agree with you, 
and I want to be crystal clear on this in a public setting, 
that there is one person responsible for the Ukraine war, and 
that is Vladimir Putin. I think it is important to acknowledge: 
in recent years, U.S. policy, as Secretary Pompeo has said, 
helped to create an environment, a permissive environment, that 
aided--indirectly aided many of Putin's aggressive aims, which 
is to say the decisions we make in U.S. policy do help to 
create a context in--that our rivals can either exploit or not 
exploit. I think the reset was a big part of that.
    My point is, we should not have a double standard, where an 
administration can go for 6 years with a very lopsided 
courtship of an authoritarian Russia, where we were pulling 
back on our values and our interests, but it is somehow off 
bounds for this administration to even talk about planning a 
meeting with the Russians to explore whether it--whether there 
are points of cooperation. I take your overall point. Vladimir 
Putin is the one who was responsible for the Ukraine war.
    On the issue of Iran, you know, the Secretary recently 
outlined our approach. It, I would argue, is a much more 
comprehensive strategy, in that, in addition to imposing 
financial penalties, it focuses also on engaging the Iranian 
people, creating a deterrence structure for our regional 
allies, and dealing with ballistic missiles and malign 
activity.
    It is interesting, unlike our European allies, our Middle 
Eastern allies were very much not pleased with JCPOA. They saw, 
both in monetary and in military terms, how JCPOA created an 
opening for Iran to become more aggressive. So, I think the--
our focus, at this point, is working with all of our allies, 
not just in Europe, but in the Middle East and in East Asia, to 
build a comprehensive international framework.
    What I have seen in our interactions with the Europeans in 
talking about Iran, both pre- and post-decision on the JCPOA, 
is, I think there is a fair and wide consensus between 
ourselves and European allies on analysis of the Iranian 
threat, much more so than there was before we started this 
process. Our European interlocutors acknowledge the need to 
deal effectively with ballistic missile proliferation, with 
arming the Houthis and bringing the Revolutionary Guard into 
Syria. President Macron, when he was here, had a four-point 
formula, or four pillars, that are very similar to the U.S. 
approach.
    Senator Murphy. On--right, on non- --right, I understand 
that. But, you are talking about non-nuclear activity. I submit 
that we can continue to work with the Europeans on non-nuclear 
activity. But, let us just get the--let us just get the playing 
field straight today. The Europeans today are not interested in 
reimposing new nuclear sanctions on Iran. They are interested 
in trying to hold together the set of economic benefits that 
will entice Iran to stay in the nuclear agreement. That is 
Europe's position today.
    Dr. Mitchell. Well, I think we will know more about 
Europe's position in coming days. There is some difference of 
opinion among different members of the E3 and then from the EU. 
We will know more about their collective perspective on this 
when we have more dialogue in the near future.
    What I would say, though, is, I think there--the self-
policing of European companies, the flight of European 
companies doing business in Iran away from Iran, has changed 
the equation, in the sense that, when European leaders look at 
Iran and they see their own businesses are voluntarily removing 
themselves from the equation in Iran, I think that creates a 
different playing field.
    Senator Murphy. Yeah, it still does not sound to me like a 
strategy about how you get the Europeans into a fundamentally 
different place than they are today. I mean, it is true that, 
today, the Europeans are trying to--that Merkel, in particular, 
are trying to hold this deal together. And there does not seem 
to me to be any strategy to reverse their position, or any 
short- or medium-term hope to ultimately rebuild a set of 
sanctions that were tougher than the ones that we had. I know 
that you can hope for that to be true, but part of the reason 
that most of the foreign policy establishment surrounding the 
President begged him not to do this was that they knew that 
that would be a likely impossibility.
    Thank you, Mr. Chairman.
    Senator Johnson. Senator Shaheen.
    Senator Shaheen. Thank you.
    I would like to go back to the Balkans, because, as you 
know, recent electoral issues in Bosnia-Herzegovina have 
contributed to concerns about stability there. And I wonder if 
you could talk more specifically about what we are doing to 
work with the international community to try and encourage a 
fix to allow elections to move forward.
    Dr. Mitchell. Thank you for that question, Senator.
    I have been personally very engaged on this issue. And when 
I was in the Balkans last week, this was a point of discussion. 
Two broad strands to this approach. The first is, we are 
working very closely, particularly with the European Union and 
other regional allies, to use the small window that we have in 
the lead-up to the elections to really push for electoral 
reform. And I think Kovic, in particular, will be the key. We 
are working with the Croats, in particular. When I was in 
Zagreb last week, we believe that they will be the key to 
formulating the House of Peoples in a way that allows for a 
stability but also equal representation. In a parallel track 
with NATO, we have supported the British approach in NATO, in 
the lead-up to the summit, of lowering some of the conditions 
with regard to the defense properties so that we can have a 
clearer path to a discussion about NATO prospects, essentially 
so that Srpska lista is not exercising a de facto veto.
    I would--on the Balkans, in general, I would like to get 
back to the place we were when Bosnia-Herzegovina was the main 
and biggest problem of the Balkans, so to deal with the name 
issue and deal with Serbia-Kosovo and get more attention to 
Bosnia-Herzegovina. I do think the conditions there create a 
very attractive opening for the Russians to meddle.
    Senator Shaheen. And there is no doubt about that. Not just 
in Bosnia-Herzegovina, but, as you point out, in Kosovo and 
Serbia and throughout the Balkans. So, I think the more we can 
do to help stabilize the situation, the better.
    I want to turn, finally, to Turkey, because there are a 
number of issues with Turkey that I know the State Department 
is very concerned about. And one of those is their continued 
pursuance of the S-400 air defense system from Russia, which 
obviously would be in violation of CAATSA law. So, can you talk 
about what the administration is doing on that front? And if 
Turkey does accept delivery of that system, when would we 
invoke sanctions under CAATSA?
    Dr. Mitchell. Thank you for that question.
    As you know, Senator, I have been very engaged with the 
Turks on this. It is a very serious matter. We have been clear, 
in all of our communications with the Turkish government, that 
acquisition of the S-400, which we would assess to have 
occurred when there is actual--an actual delivery of the 
technology--we have been clear, on multiple occasions with the 
highest levels of the Turkish government, there will be 
consequences. First and foremost, what is spelled out under 
CAATSA, Section 231, we will abide by that. And when a--when we 
determine that a transaction has been made, we will impose 
sanctions in accordance with the--CAATSA, Section 231.
    We have also been very clear that, across the board, an 
acquisition of S-400 will inevitably affect Turkish--the 
prospects for Turkish military industrial cooperation with the 
United States, including F-35. I have--I think we have to put 
this in the context that this is a crucial ally and partner. 
What they are doing for us and with us on Defeat ISIS is 
absolutely essential. We work with them very closely in 
intelligence and in other areas, but this has the potential to 
spike the punch. And I think we cannot be any clearer than 
saying that both privately and publicly, that a decision on S-
400 will qualitatively change the U.S.-Turkish relationship in 
a way that would be very difficult to repair.
    Senator Shaheen. Well, thank you. I think that is an 
important message for Turkey to hear. As I am--think you are 
aware, I have been involved in efforts, with Senators Lankford 
and Tillis, to try and delay the delivery of F-35s to Turkey, 
because of--primarily because of their holding, without any 
reason, American citizens, particularly Pastor Brunson. And I 
appreciate that, at last week's ceremony with Lockheed Martin 
on celebrating the partnership with Turkey on the F-35, that 
the State Department did not send a representative to the 
ceremony. I think it is, again, part of trying to send a clear 
message to Turkey about what our views are. And--but, I do know 
that there is some confusion about whether planes have actually 
been delivered. It is my understanding that DOD officials have 
said that we have already begun delivery of planes. It is my 
understanding that that is not the case. Can you confirm for us 
whether any planes have actually been delivered to Turkey?
    Dr. Mitchell. As you probably know, this--Senator, the--in 
this program, the U.S. maintains custody of aircraft until 
their transfer, which normally occurs after a lengthy training 
process. In my view, that is helpful for us in these 
circumstances, because it gives us time to continue the 
messaging. My understanding is that we are in the training 
phase.
    We have watched developments on the Hill. We know some of 
what is being considered on F-35. We believe that we have 
existing legal authorities that would allow us to withhold 
transfer, under certain circumstances, including national 
security concerns. Given that, we believe that we continue to 
have the time and ability to ensure Turkey does not move 
forward on S-400 before having to take a decision on F-35. We 
are being very clear, in our messaging to the Turks, that there 
will be consequences. Beyond that, I would request the ability 
to discuss it with you in a classified setting.
    Senator Shaheen. I am happy to do that. As you know, 
those--the provisions that are in the NDAA and in the 
appropriations bill are also on track for passage, so there 
will be additional ability to cite the acts of Congress in 
dealing with Turkey.
    Can you tell me, to the extent that we can make this 
information public, how many American citizens we believe 
Turkey may be holding in prison?
    Dr. Mitchell. We can confirm dozens of U.S. citizens, 
mostly U.S.-Turkish dual nationals, that have been detained or 
deported since the start of the state of emergency. You are 
aware of some of the legal and privacy restrictions on our 
ability to discuss it in this setting. My understanding is that 
there are roughly two dozen detainees. Most are detained on 
criminal charges or foreign terrorist charges. Of that number, 
I believe four have signed privacy waivers. And we also have 
three locally employed staff who are being detained.
    Senator Shaheen. And can you talk about what we are doing 
to try and address those improper detentions, and who we are 
talking to in the Turkish government, and the extent to which 
we are bringing this up with President Erdogan?
    Dr. Mitchell. The subject of these detained citizens, but 
particularly American citizens, is at the forefront of our 
agenda with Turkey. And as important as these other areas are 
all the way up to the level of the Secretary and the President, 
it tops our list when we talk to the Turks. And the point that 
we have tried to make repeatedly is two things. Number one, 
Turkey does have legitimate security concerns that need to be 
addressed. And we have tried to help address those, including 
in Syria. In parallel, we have tried to help the Turks 
understand that, if they continue to unjustly detain American 
citizens, it will significantly alter the tenor of our 
relationship.
    We appreciate that Capitol Hill has created leverage for us 
in some of these areas. We use that leverage to the maximum 
ability. We explore every inch of leverage that we have on 
these. We raise it constantly.
    I will just use this setting to lay a very strong marker on 
the case of Andrew Pastor--Pastor Andrew Brunson, in 
particular. I have been in close touch with his wife and in his 
family--with his family. We have looked at the arraignment, in 
terms of the case that was brought against him, in both English 
and in Turkish. There is nothing there. This is as manifest a 
case of unjust detention as we have seen. There are limits to 
how far we can go in transactionalizing things with any ally or 
with any country, but we have examined every option, and we 
message it all the way to the highest levels, and will continue 
to do so.
    Most immediately, we are hoping and expecting to see 
President Erdogan act on the pledge that he made during the 
campaign expeditiously to lift the state of emergency. And we 
are monitoring that very closely.
    Senator Shaheen. And I know I am out of time, but, if I 
could, Mr. Chairman, just follow up with another question.
    Because I know that, in the past, we have often assumed 
that, after elections, it would be easier to deal with 
President Erdogan and Turkey. That has not necessarily proved 
to be the case. And is there any reason to believe that he may 
be more responsive after these elections?
    Dr. Mitchell. It is a good question.
    We are--we have consistently said that we respect the 
democratic desires of the Turkish people. We were concerned 
about some irregularities in this election. We are concerned 
about the state of human rights. I think, in the period after 
the election, our approach is going to be to continue to find 
those areas where we can cooperate and strengthen the 
relationship. As I said, Turkey is a strong ally and partner 
that has legitimate security concerns. So, we are going to 
continue to try to strike that balance.
    I am not going to try to look in a crystal ball. I would 
just say that I think President Erdogan knows what our 
expectations are about our people, about the weapon systems, 
about all aspects of the relationship with other allies in the 
region. And we are going to use every opening that we have to 
message that, but also try to get this relationship on a better 
track. It--Turkey--keeping Turkey on a track towards not only 
the political West, but the geostrategic West, has to be a 
prime objective for U.S. strategy in the region.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Johnson. Thanks, Senator Shaheen. I appreciate you 
bringing up the subject of Turkey. Turkey's treatment of Pastor 
Brunson is simply outrageous, and I think they need to 
understand that every Member of Congress is highly concerned 
about it. I appreciate your and Senator Tillis's lead on it.
    Mr. Secretary, I appreciate your strong statement on it, as 
well. That would be a really big step, in terms of helping to 
improve relationships with a very important country.
    My final question is--we have not talked about the Baltic 
states. I have always been concerned, you know, particularly 
after Russia's invasion of Georgia, Crimea, Eastern Ukraine, 
you know, what could be next. Our response now, with lethal 
defense and weaponry into Ukraine, hopefully sends a pretty 
strong signal. Can you just give me your assessment, in terms 
of the dangers of Russian meddling in the Baltics?
    Dr. Mitchell. I think those dangers are very real, sir, and 
I think the Baltics--the Baltic states, their security and 
political relationships with the United States have never been 
stronger. These are model democracies, really set the standard 
in the--across the region for strong Atlanticist bulwarks. I 
think we have to be diligent in this area, both militarily and 
with regard to hybrid and cyber threats. And we have strong 
pathways of coordination with all three of these countries.
    Senator Johnson. Well, Dr. Mitchell, we really do 
appreciate your service. Incredibly important relationships we 
are dealing with in a very unstable environment and world. So, 
you know, thank you for your service, for your testimony.
    And, with that, the hearing record will remain open for the 
submission of statements or questions until the close of 
business on Thursday, June 28th.
    This hearing is adjourned.
    [Whereupon, at 11:06 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


  The Committee Received No Response From Assistant Secretary A. Wess 
   Mitchell for the Following Questions Submitted by Senator Robert 
                                Menendez

    At the Bucharest Summit in April 2008, the member countries of the 
North Atlantic Alliance issued a declaration welcoming Ukraine's and 
Georgia's NATO membership aspirations and stated NATO's support for the 
two countries' applications for Membership Action Plans (MAP). Recent 
developments on the Macedonia name dispute have also increased 
prospects for that country to make progress toward NATO accession. 
Meanwhile, we have seen significant backsliding on democratic rule of 
law in some NATO states like Hungary and Poland.

    Question. Will the United States urge that the 2018 NATO Summit 
joint communique reiterate aspirations for the eventual NATO membership 
of Ukraine and Georgia?

    Answer. [No Response Received]

    Question. How will the United States and its NATO allies address 
the issue of Macedonia moving to join the alliance and what specific 
steps will be taken at the summit to boost such prospects?

    Answer. [No Response Received]

    Question. Will the NATO Summit communique reiterate that respect 
for democratic values and the rule of law are core foundations to which 
all alliance members must adhere? How will the United States engage at 
the Summit on democratic backsliding in NATO member states?

    Answer. [No Response Received]

    Russian government aggression and interference against our allies 
and partners in Europe has increased dramatically in recent years. 
Across Europe, the Kremlin is advancing disinformation campaigns, 
corruption, cyber hacking, intrusion into domestic political affairs, 
and efforts to create energy dependency to threaten our European 
allies. As President Trump prepares to meet with President Putin, it is 
critical for him to confront--clearly and directly--this aggression in 
all its varied forms, and to marshal a whole-of-government strategy to 
respond.

    Question. Will President Trump object to the Kremlin's interference 
in elections and democratic processes in the U.S. and across Europe 
during his July 16 meeting with President Putin? Will he reiterate 
longstanding calls for Russia to reverse its illegal annexation of 
Crimea and its violent aggression in Eastern Ukraine?

    Answer. [No Response Received]

    Question. What actions is the Administration taking to combat state 
propaganda in Europe? How is the Global Engagement Center (GEC) engaged 
in this with regard to Russian disinformation, and have any GEC 
projects in Europe been launched?

    Answer. [No Response Received]

    Question. What efforts is the State Department making to ensure 
continued coordination with the EU on maintaining sanctions against 
Russian malign actors, particularly as the bloc prepares for a renewal 
vote on its existing sanctions regime? How is the Department pushing 
for expanded EU sanctions, to reinforce U.S. efforts under CAATSA?

    Answer. [No Response Received]

    Russia's illegal occupation of the Crimean peninsula and covert 
military and political interference violate the freedom and sovereignty 
of the Ukrainian state. The United States has historically supported 
the freedom, sovereignty, and territorial integrity of our Eastern 
European allies, as we did in the Welles Declaration of 1940, but 
President Trump's reported comments that Crimea is Russian because of 
the prevalence of Russian speakers there raise questions about whether 
United States policy on the peninsula is in flux. Meanwhile, Russia's 
illegal occupation continues to generate dire human consequences--with 
estimates that at least 50 individuals from Crimea are currently held 
in Russian custody on politically-motivated grounds.

    Question. Will the Administration formally issue a policy statement 
akin to the Welles Declaration, stating our commitment to the 
sovereignty of our European allies and that the United States will 
never recognize Russia's illegal annexation and occupation of Crimea?

    Answer. [No Response Received]

    Question. Is the U.S. government engaged in discussions with the 
Russian government on the release of Ukrainian political prisoners, 
such as Oleg Sentsov and Aleksandr Kolchenko, who were arrested in 
Crimea and are currently languishing in Russian prisons for their 
support of an independent, sovereign Ukraine?

    Answer. [No Response Received]

    Question. How is the U.S. government engaged in promoting respect 
for human rights and religious freedom in Crimea, including for 
journalists, civil society activists, and members of non-Russian ethnic 
groups?

    Answer. [No Response Received]

    I am concerned that, without successful efforts to visibly hold 
corrupt actors accountable and break the grip that a small group of 
oligarchs has over Ukraine's political and economic life, our anti-
corruption efforts to date will be stymied. The passage this month of 
legislation to establish an independent anti-corruption court in 
Ukraine was undermined by the dismissal of a finance minister who had 
been active in promoting transparency measures.

    Question. What role does imagine the United States will play in the 
establishment and functioning of such a court?

    Answer. [No Response Received]

    Question. What will be the appointment process for judges to an 
independent anti-corruption court? What role will the international 
community have in the safeguarding the political independence and 
credibility of the appointment process, and specifically, what will be 
the extent of American involvement in the selection of judges?

    Answer. [No Response Received]

    Turkey continues its occupation of northern Cyprus amidst reports 
of efforts to influence the culture, politics, and demographics of the 
north of the island. It has also failed to offer or accept confidence-
building measures to move the parties back toward peace talks.

    Question. What action is the Administration currently taking to 
build a closer security and defense relationship with Cyprus, including 
high-level engagements and practical exchanges? Is the Administration 
willing to lift the embargo on U.S. arms sales and transfers to which 
Cyprus is currently subject?

    Answer. [No Response Received]

    Question. What is the State Department's strategy to encourage a 
change in Turkey's posture on Cyprus and renew progress on peace talks?

    Answer. [No Response Received]

    The inauguration of a new prime minister in May after weeks of 
peaceful, pro-democracy protests presents a new opportunity for the 
United States to support Armenia's democratic development, peaceful 
relations with neighbors, and resilience against Kremlin influence and 
corrupt, anti-democratic spoilers inside the country.

    Question. What approach is the State Department taking to support 
democratic elections in Armenia, including by supporting domestic and 
international observers and providing rapid assistance to OSCE or other 
key actors?

    Answer. [No Response Received]

    Question. What other assistance and diplomatic efforts is the State 
Department undertaking, including through the Millennium Challenge 
Corporation, to respond to recent developments in Armenia and boost 
progress in the country on democratic, judicial, media, and anti-
corruption reforms?

    Answer. [No Response Received]

    Question. How is the State Department helping Armenia to resist 
aggression from external actors like Russia, Turkey, and Azerbaijan, 
who may seek to block democratic reforms or seize on its transition to 
advance their own ends?

    Answer. [No Response Received]

    The position of a Special Envoy on Northern Ireland remains vacant. 
The lack of a dedicated U.S. point person on Northern Ireland leaves us 
poorly equipped to push for full implementation of the Good Friday 
Agreement and the protection of elements that are core to peace and 
prosperity in Northern Ireland.

    Question. When will the Trump Administration appoint a Special 
Envoy on Northern Ireland and an ambassador to the Republic of Ireland?

    Answer. [No Response Received]
    Question. What is the State Department doing to address 
deficiencies in the parties' implementation of the Good Friday 
Agreement, particularly in light of Brexit negotiations?

    Answer. [No Response Received]
                               __________

    Responses of Assistant Secretary A. Wess Mitchell to Questions 
                Submitted by Senator Benjamin L. Cardin

    It has been nearly six months since I released the Senate Foreign 
Relations Committee minority staff report, `Putin's Asymmetric Assault 
on Democracy in Russia and Europe: Implications for U.S. National 
Security.' You and I have previously discussed this report.

    Question. What do you and your staff make of the report's findings 
and recommendations?

    Answer. Russia has shown through its aggressive actions that it 
rejects the post-Cold War order. Russia's efforts have extended beyond 
traditional military campaigns to encompass a suite of ``hybrid'' tools 
used to gain influence. Safeguarding the United States and our Allies 
and partners from Russian malign influence campaigns is a core 
component of the Administration's Russia strategy, our diplomatic 
engagement with partners and allies, and our foreign assistance. I 
agree Russian efforts to undermine democratic processes and the 
sovereignty of its neighbors are unacceptable and require a whole-of-
government response. We are working across the U.S. government, as well 
as closely with Allies and partners, to deter and defend against these 
activities both at home and abroad.

    Question. Is there any effort to implement any of the report's 
recommendations?

    Answer. The Department works across the interagency, as well as 
closely with Allies and partners, to deter and defend against Russian 
malign activity both at home and abroad. The Department works on a 
whole-of-government basis that combines diplomatic, foreign assistance, 
intelligence, and law enforcement lines of effort to:

    <bullet> Expose Russian malign behavior and combat misleading 
narratives in the press.

    <bullet> Target our foreign assistance to increase the resilience 
of our partners to resist and counter Russian pressure. We support 
programs to improve good governance; expand civic engagement and 
independent media; enhance cyber security; increase defense 
capabilities; strengthen rule of law and anti-corruption measures; and 
promote European integration, trade diversification, and energy 
security.

    <bullet> Promote positive, truthful narratives about the United 
States and its Allies to reinforce the importance of Western 
institutions and values to partner governments and populations that are 
most vulnerable to Russian influence.

    <bullet> Develop and fund programs that help foreign audiences 
recognize false narratives and stave off attempts at influence.

    <bullet> Work with partners and Allies to share information and 
exchange best practices, including through multilateral Centers of 
Excellence.

    <bullet> Provide concrete support to partner countries in response 
to specific threats, including cyber threats.

    <bullet> Enhance partner capacity to mitigate cyber vulnerabilities 
and respond to threats through technical assistance and bilateral and 
multilateral diplomatic engagement.

    These efforts are coordinated across the interagency at every level 
to ensure a comprehensive approach.

    Question. Are you concerned about Russia's reported involvement in 
Mexico's democratic process ahead of its July 1 election, and, does the 
Administration remain concerned about Russia's possible meddling in our 
democratic institutions and processes ahead of the 2018 midterm 
elections?

    Answer. Free and fair elections are the cornerstone of democracy 
and self-governance and any efforts to improperly influence Mexico's 
elections would be completely unacceptable. We are aware of concerns of 
Russian involvement in Mexico's electoral process that were raised 
early in the campaign season, but we are confident in Mexico's 
democratic process and the oversight of the Mexican Election Institute 
to accurately reflect the will of the Mexican people.
    The Department of State works closely with other departments and 
agencies to protect our nation against potential interference in our 
election processes. As the lead foreign policy agency, we warn the 
Russian government when its behavior is unacceptable, work with our 
interagency partners to impose costs in response, and build 
international coalitions to actively deter malign Russian activities 
and to share best practices. We will continue to support the domestic 
efforts of the Departments of Homeland Security and Justice and, as 
appropriate, state and local officials to secure our elections, 
leveraging all necessary and available Department resources to counter 
Russian interference efforts.

    There has been a recent uptick in violence and prejudice in Europe 
that has impacted not only racially, ethnically, and religiously 
diverse populations living in Europe, but also American servicemen and 
women, diplomats, and students. Through the State Department 
authorization and appropriations processes, I and other members of 
Congress have asked for a State Department focus on advancing diversity 
and promoting integration of all segments of the population in Europe, 
including religious, racial, and ethnic minorities.

    Question. What is the Department currently doing to address the 
violence and advance integration generally? For Roma, Afro-descent, 
Muslim, migrant and refugee populations?

    Answer. The Department of State works with our European partners to 
combat intolerance, foster inclusion, and promote respect for human 
rights, including those of persons belonging to vulnerable groups, 
including the Roma, people of African descent, Muslim, migrant, and 
refugee populations, and other ethnic and religious minority groups. 
Doing so is a core element of U.S. foreign policy and consistent with 
our commitments under the OSCE's Helsinki Principles and other 
international covenants.
    The Department also reports on acts and violence and discrimination 
against such groups in our annual Country Reports on Human Rights 
Practices and International Religious Freedom Reports. In addition to 
bilateral and multilateral diplomatic engagement, U.S. foreign 
assistance in Europe and Eurasia supports and empowers civil society in 
these areas, helping to foster increased inclusion of minority and 
disadvantaged groups; and works collaboratively with government and 
civil society partners to identify and learn from successful strategies 
for inclusion and integration of refugee populations applicable to the 
European and Eurasian context.
    I will continue to work closely with the OSCE's Office for 
Democratic Institutions and Human Rights, and with the OSCE's 
respective Tolerance Representatives, to condemn and combat intolerance 
and hate-motivated crimes against members of vulnerable populations, 
including migrants and ethnic and religious minorities.

    Question. In my capacity as OSCE Special Representative on Anti-
Semitism, Racism, and Intolerance, can we partner on a specific 
initiative to advance diversity and promote integration in Europe?

    Answer. The Department of State always welcomes involvement from 
members of Congress on important issues at the OSCE, including 
advancing diversity and promoting integration in Europe. We appreciate 
how active you and the rest of the Helsinki Commission have been within 
the OSCE Parliamentary Assembly, where the U.S. delegation has always 
been a strong supporter of tolerance and non-discrimination. The 
Department would be interested to receive your ideas for any 
initiatives. Assistant Secretary Mitchell would welcome the opportunity 
to discuss.

    The European Parliament recently hosted the first ever People of 
African Descent week, where over 100 hundred Afro-descent elected 
officials, civil society and private sector leaders highlighted 
increasing hate crimes and discrimination in employment, justice and 
other sectors impacting the 10-15 million citizens and others making up 
Europe's Afro-descent population. Recommendations included the European 
Union adopting a Framework Strategy for the Inclusion of People of 
African Descent and increased civil society and private sector funding 
for Afro-descent led initiatives. The U.S. has long supported efforts 
focused on vulnerable groups, including detailing abuses in the annual 
human rights reports and supporting empowerment initiatives such as 
start-up and other funds for entrepreneurial and human rights efforts 
on the ground.

    Question. What is the Department currently doing to address the 
situation of People of African Descent in Europe? What more can be 
done?

    Answer. The Department of State remains committed to protecting and 
promoting the human rights of all persons, including people of African 
descent. Democracy and stability are most secure when all people, 
including the most vulnerable, live freely without fear of violence or 
discrimination. The United States works with governments in Europe and 
Eurasia both bilaterally and in cooperation with the European Union and 
the Organization for Security and Cooperation in Europe to combat 
intolerance and xenophobia, foster inclusion, and promote the security, 
safety, and human rights of persons belonging to vulnerable minorities, 
including those of African descent. As noted in your question, the 
Department also reports on acts and violence and discrimination against 
members of this community in our annual Country Reports on Human Rights 
Practices.

    Question. In my capacity as OSCE Special Representative on Anti-
Semitism, Racism, and Intolerance, can we partner on a specific 
initiative to advance diversity and promote integration in Europe?

    Answer. The Department of State always welcomes involvement from 
members of Congress on important issues at the OSCE, including 
advancing diversity and promoting integration in Europe. We appreciate 
how active you and the rest of the Helsinki Commission have been within 
the OSCE Parliamentary Assembly, where the U.S. delegation has always 
been a strong supporter of tolerance and non-discrimination. The 
Department would be interested to receive your ideas for any 
initiatives. Assistant Secretary Mitchell would welcome the opportunity 
to discuss.

    Question. I have repeatedly asked for the Administration to appoint 
a Special Envoy to Combat and Monitor Anti-Semitism in part given 
recent anti-Semitic incidents taking place in western and eastern 
Europe. Do you have any information on whether someone will be 
appointed in the near future?

    Answer. Secretary Pompeo told Congressman Smith in May he would do 
his best to see a Special Envoy to Combat and Monitor Anti-Semitism 
(SEAS) appointed soon. In the absence of a SEAS, we have continued our 
strong diplomatic efforts to combat anti-Semitism. Ambassador at Large 
for International Religious Freedom Sam Brownback and his team have 
been meeting with Jewish leaders to hear their concerns and, along with 
our embassies, have been pressing governments in Europe and elsewhere 
to take steps to protect Jewish and other religious minority 
communities and promote religious freedom.

    Question. As Ukraine works to advance democracy, protect human 
rights, and counter corruption, one particular area of concern relates 
to manifestations of anti-Semitism, other forms of extremism, and 
building revisionist national mythologies in ways that have stoked 
tensions with neighbors and allies. Violent attacks against Roma have 
significantly escalated over the course of this year. The most recent 
attack, on June 23, resulted in the death of a 24-year-old man, David 
Papa. What is the United States doing to help Ukraine end this 
violence, hold perpetrators accountable, and counter extremism?

    Answer. The Department of State is committed to promoting and 
protecting religious freedom, ethnic tolerance, and combating anti-
Semitism internationally. We regularly raise our concerns regarding the 
rehabilitation of controversial wartime figures and manifestations of 
hate, neo-Nazism, and persecution of the Roma community with the 
Government of Ukraine. The U.S. Ambassador and embassy officials in 
Ukraine closely monitor and condemn incidents of anti-Semitism and 
anti-Roma manifestations. They strongly advocate for the protection of 
religious heritage sites through regular meetings with the Presidential 
Administration, ministry officials, and members of parliament.
    In our Human Rights and International Religious Freedom Reports, 
the Department of State regularly reports on anti-Semitic and anti-Roma 
incidents. These include physical and verbal attacks, vandalism of 
Jewish community property and desecration of Holocaust memorials, and 
the rehabilitation of individuals who were associated with anti-
Semitism and collaborators who killed Jews during World War II.

    Question. The United States has invested considerable time, money 
and personnel in the Western Balkans in general and Bosnia-Herzegovina 
in particular. However, Bosnian political players have repeatedly 
failed to undertake constitutional or other reforms to make government 
more functional and effective, and outside forces have contributed to 
instability. Some have argued that outside forces have been able to 
make inroads in Bosnia in part because the European Union and the 
United States have lowered their level of engagement, creating in 
effect a vacuum that Russia and others are merely filling. How is the 
United States engaging with Bosnia to support reform efforts which 
focus on making governance in Bosnia more functional and less corrupt?

    Answer. The United States believes electoral reform is necessary to 
improve the functionality and stability of Bosnia and Herzegovina 
(BiH). We are working with BiH political leaders and our European 
partners on reforms to bring the BiH electoral system into line with 
rulings by the Bosnian Constitutional Court. In particular, I would 
like to see a package of reforms consistent with the BiH Constitutional 
Court's ``Ljubic'' ruling that allows for formation of the Federation 
House of Peoples (FHoP) and proposals to resolve the electoral impasse 
in Mostar, a city that has not been able to hold elections since 2008. 
In addition to urging political leaders to find agreement on necessary 
electoral reforms, we are pressing the government to accelerate reforms 
that shore up rule of law, enhance government transparency, stamp out 
corruption, and support free media and investigative journalism to 
shine greater light on corrupt practices.

    You have said that ``criticism alone is not a strategy. Criticism 
bereft of engagement is a recipe for estrangement.'' You have also said 
that strong democracy is the foundation of our security and prosperity.

    Question. Does the administration have a strategy to advance 
democracy, including in countries like Hungary and Poland where the 
separation of powers has been openly challenged by the respective 
governments?

    Answer. The Administration's commitment to democracy is articulated 
in President Trump's July 6, 2017 Warsaw address, Secretary Pompeo's 
many remarks, and the Department's own annual Country Reports on Human 
Rights Practices, all of which make clear that democracy defines the 
United States as a nation and a cornerstone value our country shares 
with our NATO Allies. The United States has repeatedly affirmed the 
value of separation of powers and urged all countries to sustain and 
nurture it, in line with their Constitutional standards and 
international best practices. Our strategy in Central Europe focuses on 
balancing criticism when needed with engagement in areas of mutual 
interest. Its premise is that we should treat NATO states, even those 
with whom we have principled disagreements, as Allies and expect them 
to behave as Allies. Broadly, its components include: competing for 
positive influence, as outlined in the National Security Strategy, 
including through increased ``hearts and minds'' campaigns; increased 
support for anti-corruption, civil society, and counter-disinformation; 
and cooperation on defense, energy, and regional issues, with private 
(and, when warranted, public) criticism.

    Question. If so, what is that strategy?

    Answer. The United States faces a profound, ideological competition 
for influence in Central Europe and around the world. In the case of 
close Allies, we have sought to calibrate the balance between 
engagement and criticism, a balance that has not been particularly 
successful in the recent past. Constructive engagement and active 
listening are effective tools of diplomacy we will continue to employ 
robustly to advance our shared interests and values as well as message 
our concerns. Our regional strategy focuses on balancing private (and, 
when warranted, public) criticism when needed with engagement in areas 
of mutual interest. Its premise is that we should treat NATO states, 
even those with whom we have principled disagreements, as Allies and 
expect them to act as Allies. That regional strategy encompasses the 
competition for positive influence, as outlined in the U.S. National 
Security Strategy, which includes campaigning for ``hearts and minds''; 
engagement across the whole range of civil society along with greater 
support for anti-corruption and counter-disinformation; and working 
together on defense, energy, and regional issues.

    Question. Do you think the expansion of kleptocracy and weakening 
of the separation of powers in those two countries undermines our 
efforts to support democracy and counter corruption in Ukraine?

    Answer. The United States remains steadfastly committed to the 
success both of a stable, prosperous, democratic, and free Ukraine, and 
of the broader Central and Eastern European region. Grappling with 
corruption is essential to that success region-wide. With U.S. support, 
Ukraine has strengthened its democracy and adherence to the rule of 
law, is gradually improving the standard of living for its citizens, 
and is more capable of protecting itself against Russian aggression. 
Over the last four years, this support has helped Ukraine implement 
extensive reforms, including overhauling the banking sector, creating 
new anti-corruption institutions, and increasing transparency in 
government procurement. In the last year alone, Ukraine has adopted 
important reforms in education, health care, pensions, and 
privatization of state-owned enterprises. While some reforms remain 
incomplete, most critically to address systemic corruption, overall 
Ukraine has demonstrated its commitment to making the fundamental 
changes needed to increase prosperity, security, and rule of law. 
Ukraine's future depends on winning its internal struggle to transform 
itself into a strong and reliable transatlantic partner, and the 
support of the United States for Ukraine in this effort is unbending. 
We remain committed to the success of democracy in Hungary, Poland, and 
the broader Central Europe region as well.

     Since your confirmation, you have had the opportunity to travel to 
Europe on several occasions.

    Question. Have you met with human rights, civil society and other 
nongovernmental organizations during your recent official travel?

    Answer. As Assistant Secretary, I have continued longstanding 
efforts to ensure the rights of all people are protected, and to 
promote the values of freedom, democracy, individual liberty, and human 
dignity. During my recent official travel, as well as in Washington, 
DC, I have engaged with a broad spectrum of civil society, including 
human rights activists and religious groups, and the organizations that 
represent them. I look forward to continuing this engagement.

    Question. What have been your findings?

    Answer. On these trips, I have observed that the U.S.-Europe 
relationship remains strong and is cemented by a deep bond of shared 
values and interests. Even as we work with European allies on areas of 
disagreement, there is a strong mutual commitment to finding common 
ground. I have also observed that the United States lost significant 
ground over the last several years to Russia and China in key areas of 
Central and Eastern Europe, the Balkans, Caucasus, and Southern Europe. 
We must undertake serious, sustained efforts to compete for positive 
influence in these critical regions as the memory of 1989 fades among 
younger generations.

    Question. What plans are in place to strengthen support for civil 
society?

    Answer. The National Security Strategy states that, ``Liberty, free 
enterprise, equal justice under the law, and the dignity of every human 
life are central to who we are as a people.'' It also makes clear that 
a commitment to human rights is essential to advance U.S. leadership 
abroad, and that respect for human rights produces peace, stability and 
prosperity--making it integral to U.S. national security. Partnering 
with civil society is critical to advancing freedom and justice, 
defending national security, fostering economic opportunities for the 
American people, and asserting U.S. positive influence. Through 
bilateral and multilateral engagement, public diplomacy, person-to-
person contacts, and foreign assistance, the Bureau of European and 
Eurasian Affairs continues to support civil society across the region, 
recognizing the essential role it plays in encouraging governments to 
be more responsive and accountable. In addition to current programming, 
we are planning to significantly step up activities as part of a 
coordinated, multi-agency ``hearts and minds'' campaign to commemorate 
the 30th anniversary of the 1989 Revolutions.

    Question. The OSCE will hold its annual human rights meeting in 
Warsaw in September. Will the United States continue to defend the 
standards of openness access for civil society that have been the 
hallmark of the OSCE since its post-Cold War institutionalization?

    Answer. The United States will continue to champion and defend the 
participation of Civil Society Organizations (CSOs) at the Human 
Dimension Implementation Meeting (HDIM) and other OSCE events. CSOs 
play a critical role in these events, especially at HDIM, and inform 
and enrich the discussions and side events. Civil society's ideas and 
insights are crucial to the integrity and advancement of the Helsinki 
process and the achievement of lasting security. The Department of 
State agrees that CSO participation is a hallmark of the OSCE, the 
extent of which distinguished it from other multi-lateral fora. Over 
the past year, as discussion of CSO participation has continued, the 
U.S. Mission to the OSCE (USOSCE) has stood firmly with other like-
minded participating States in opposing any changes to the current 
modalities, rules, or procedures that would result in reducing or 
unduly restricting the participation of CSOs in OSCE events.

    Question. Last week, I met with the OSCE's Representative on 
Freedom of the Media Harlem Desir and discussed ongoing challenges for 
the safety of journalists, press freedom, and media pluralism in 
Central and Eastern Europe. Additionally, the Helsinki Commission held 
a briefing in May on recent tragic murders of investigative journalists 
in Slovakia, Malta, and beyond. Challenges to media freedom are 
increasing, even within the European Union. How is the Trump 
Administration addressing media freedom concerns with our European 
partners?

    Answer. The Department of State, including the U.S. Mission to the 
OSCE (USOSCE), strongly support freedom of expression, including for 
members of the media, both on-line and off-line. We engage with our 
European partners to promote freedom of expression and advocate for the 
protection of journalists and members of the media. For example, USOSCE 
speaks out frequently in the Permanent Council, most recently on July 
5, urging all OSCE participating States to fulfill their OSCE 
commitments and related international obligations. USOSCE has addressed 
a wide variety of freedom of expression issues over the past year. We 
have underscored the importance of media pluralism and raised cases of 
journalists and bloggers targeted for repression for exercising their 
freedom of expression. We also condemned violence and other crimes 
against journalists, and emphasized the need for participating States 
to investigate crimes against them. USOSCE has spoken out specifically 
on both the killing of Ms. Caruana Galizia in Malta and Mr. Kuckiak and 
his fiance Ms. Kusnirova in Slovakia, urging both countries to conduct 
rapid, transparent investigations, and to bring all perpetrators to 
justice. At the OSCE, USOSCE is part of the informal Group of Friends 
on Safety of Journalists.
    The United States is the single largest supporter of the OSCE's 
independent institutions, which includes the Representative on Freedom 
of the Media (RFOM), politically, rhetorically, and financially. Our 
extra-budgetary funds support, among other projects, the RFOM's Safety 
of Journalists Public Awareness Campaign, Media: Towards More Balance 
and Diversity, and Digital Media Literacy. We frequently reiterate our 
support for the RFOM's role, broad mandate, and independence.

    Question. In your meetings with European leaders, what has been 
their reaction to the recent increase in tariffs? Do they still 
consider the U.S. a strong ally?

    Answer. On June 22, the EU imposed its own set of tariffs in 
retaliation to Section 232 steel and aluminum tariffs, targeting a list 
of U.S. exports to the EU such as steel, agriculture, textiles, 
spirits, and motorcycles worth $3.2 billion. The EU has said it may 
choose to impose retaliatory tariffs on an additional $4.0 billion of 
U.S. goods either in three years, or after a positive finding in the 
EU's WTO dispute of U.S. tariffs. The United States' goal has been to 
promote free, fair, and reciprocal trade. These tariffs do not define 
the Transatlantic relationship. The president has stated that he would 
like to see a situation where both U.S. and EU tariffs are reduced to 
zero.
    A strong Transatlantic partnership remains central to U.S. foreign 
and security policy despite our policy differences. We agree far more 
than we disagree, as evidenced in our close cooperation around the 
world, including: addressing conflicts in the Middle East, confronting 
malign state actors, countering terrorism, and improving European 
security. The United States is committed to working with the EU to 
narrow the gaps between us and work on issues of common concern.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                  <all>
</pre></body></html>
